<html>
<title> - ASBESTOS CLEANUP IN LIBBY, MT</title>
<body><pre>[Senate Hearing 107-1002]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1002

                     ASBESTOS CLEANUP IN LIBBY, MT

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON SUPERFUND, TOXICS, RISK, AND WASTE MANAGEMENT

                                 of the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

TO ASSESS ASBESTOS REMEDIATION ACTIVITIES AND EVALUATE HOME INSULTATION 
                      CONCERNS RELATED TO ASBESTOS


                               __________

                             JUNE 20, 2002

                               __________

  Printed for the use of the Committee on Environment and Public Works



                    U.S. GOVERNMENT PRINTING OFFICE
83-698                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           PETE V. DOMENICI, New Mexico

                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director
                              ----------                              

      Subcommittee on Superfund, Toxics, Risk and Waste Management

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  LINCOLN CHAFEE, Rhode Island
RON WYDEN, Oregon                    JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
HILLARY RODHAM CLINTON, New York     MICHAEL D. CRAPO, Idaho
JON S. CORZINE, New Jersey           ARLEN SPECTER, Pennsylvania


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 20, 2002
                           OPENING STATEMENT

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     1

                               WITNESSES

Black, Brad, M.D., Lincoln Community Health Officer and Director, 
  Clinic for Asbestos Related Disease............................    22
    Prepared statement...........................................    93
Cohan, Pat, coordinator, Clinic for Asbestos Related Disease.....    20
    Prepared statement...........................................    92
Falk, Henry, M.D., Assistant Administrator, Agency for Toxic 
  Substances and Disease Registry................................    12
    Prepared statement...........................................    51
Horinko, Marianne, Assistant Administrator, Office of Solid Waste 
  and Emergency Response, U.S. Environmental Protection Agency...     8
    Prepared statement...........................................    46
Konzen, John, Lincoln County Commissioner, Libby, MT.............    26
    Prepared statement...........................................    94
Murray, Hon. Patty, U.S. Senator from the State of Washington....     5
    Prepared statement...........................................    43
Spence, Michael, M.D., State Medical Officer, Montana Department 
  of Public Health and Human Services............................    18
    Prepared statement...........................................    55
    Report, Medical Testing of Individuals Potentially Exposed to 
      Asbestoform Minerals Associated with Vermilculite in Libby, 
      MT, Year 2000.............................................. 57-91
Wagner, Gregory, M.D., Director, Division of Respiratory Disease 
  Studies, National Institute for Occupational Safety and Health.    10
    Prepared statement...........................................    48

                          ADDITIONAL MATERIAL

Statement, Rehberg, Hon. Denny, U.S. Representative from the 
  State of Montana...............................................    45

 
                     ASBESTOS CLEANUP IN LIBBY, MT

                              ----------                              


                        THURSDAY, JUNE 20, 2002

                               U.S. Senate,
         Committee on Environment and Public Works,
                  Subcommittee on Superfund, Toxics, Risk, 
                                      and Waste Management,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m. in 
room 406, Senate Dirksen Building, Hon. Max Baucus (acting 
chairman of the subcommittee) presiding.
    Present: Senator Baucus. Also Present: Senator Murray.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. The meeting will come to order, and thank 
you all for being here today. I thank Senator Boxer, Senator 
Chafee and Senator Reid, members of this committee, for helping 
arrange this hearing. I am also a member of this committee, but 
they hold leadership positions in this committee, and I want to 
thank them for their efforts.
    Every community in our country obviously is special, but I 
must say that in my State of Montana, even though every 
community in Montana is special, I like to speak about one in 
particular, and that is Libby, MT. Libby is a small town. Most 
people there earn their living in the woods, mills or in the 
mines. In January 2000, some very kind people from Libby 
invited me into their homes to talk about some of the health 
problems they were having as a result of exposure to tremolite 
asbestos from the defunct W.R. Grace mine.
    I have become very good friends with all these people. They 
are wonderful, wonderful people. Their stories over the last 
couple of years since I first got involved in this matter have 
kept me focused on doing what is right for the people of Libby.
    As I stood in the home of Gayla Benefield on a January 
afternoon, I met with nearly 30 people from Libby, all 
suffering from the effects of asbestos illness or had already 
lost loved ones due to the disease. That afternoon, I also met 
a man in the living room of Gayla named Les Gramstad. I want to 
tell you a little about Les. He is a father, husband and 
grandfather. He has made his living at the W.R. Grace mine. Les 
shared stories with me about returning home at the end of a 
long workday at the mine, covered completely with dust. I have 
to tell you, I have watched these guys get off the bus. They 
are just like dust bags. They are just totally filled with 
dust. He would go home. His children would climb into his lap 
and play with him. He would embrace his wife.
    You guessed it. He, not knowing he had contracted 
asbestosis, gave asbestos-related diseases unwittingly to his 
children. He gave the disease to his wife, as they came in 
contact with the dust. So not only is Les dying, but he also 
has this tremendous guilt that he has caused his loved ones to 
also have the disease. As we all know, this is a disease where 
once you get it, you just do not know what the consequences are 
going to be and it is very long-lasting. Most people have a 
very difficult time and many eventually die.
    I want to show you a picture of the working mine. It is 
over to my left. This picture is from the late 1960's. It is 
close to the time that Les worked at the mine. You can just get 
a sense of the pollution. As you can tell from the photograph, 
the mill there is spewing a lot of dust in the air. That is 
more than 24,000 pounds of dust expelled each and every day 
that the mine operated, and 5,000 pounds of that 24,000 was 
tremolite dust--tremolite asbestos. There are many, many forms 
of asbestos. The worst and most deadly is tremolite. Asbestos 
is mined at various sites around the country. There are various 
forms of asbestos, but the most deadly is tremolite, and 
tremolite asbestos is the type of asbestos that is mined in 
Libby, MT.
    Piles of the dust as waste from the mine were dumped as 
tailings that pushed right up into the Kootenai River. That is 
the river that runs right alongside Libby, alongside of the 
mine, and I know it eventually goes further west into the 
Columbia River and affects those States as well.
    W.R. Grace gave the stuff away free. Here is what they 
said, W.R. Grace at the time, ``Use it in your garden, in the 
high school track. Use it in your driveway. Stuff it in your 
attic for insulation.'' So people did, because the dust was 
harmless. At least that is what W.R. Grace told them. There was 
no one to contradict those company statements--not the State, 
even though there is evidence the State had that this stuff is 
poisonous; not the Federal Government, even though they had 
evidence as well. No one told the people of Libby the tailings 
from the W.R. Grace mine was poison. Nobody told them that.
    Let me show you now what a tremolite asbestos fiber looks 
like magnified. That is a tremolite asbestos fiber. As you can 
tell, it looks like a long needle. These tiny fibers get into 
people's lungs and their lungs cannot get rid of them. It is 
like a javelin. It is like a hook. It just gets into the lungs 
and it gets into the membrane and it does not get out because 
like a javelin, it has that hook in it. Eventually these fibers 
cause lung cancer or deadly mesothelioma, a very rare cancer 
caused only by asbestos; or folks get asbestosis and die slowly 
and painfully as it gets harder and harder to breathe.
    This is a photograph now of a Memorial Day service in May 
of this year. Those white crosses clearly represent people who 
died in Libby on account of the disease. The first night I 
visited Les, he told me he had asbestosis. He was exposed 
during the short time he spent working at the mine. Les went on 
to share, which is the most troubling part of the story, and I 
have already mentioned that not only is Les sick, but so is his 
wife, Narita and so are their children who are now in their 
20's and 30's. Each one of them was exposed to tremolite 
asbestos fibers contained in the dust Les carried home on his 
clothes. Every time he hugged his kids hello, as I mentioned, 
every time he greeted his wife at the end of a long day, he was 
exposing his family to asbestosis poisoning.
    Les went on to tell me that his story is not unique. There 
are dozens more like him still living in Libby, and many who 
have already died--died because of their exposure to tremolite 
asbestos dust. Hundreds more are sick. In fact, the Agency for 
Toxic Substances and Disease Registry has found that Libby 
suffers from asbestos-related disease at the rate of 40 to 60 
times the national average. W.R. Grace knew. Federal and State 
agencies knew. They all knew that the asbestos that 
contaminated the vermiculite ore was deadly.
    That afternoon, Les asked me to help him and I told him I 
would. I will never forget the next thing he said to me. He is 
a tall man, a little taller then than now. He said, ``Max, I 
will be watching you to make sure you keep your word,'' because 
I told him I would do all I could. Les did not have to say 
that. The instant I recognized the problems Les and the people 
of Libby were facing, by talking to them at Gayla Benefield's 
home that afternoon, I pledged to myself that I am going to do 
whatever I possibly can to help the people of Libby and to make 
this situation right for them. That is the most gut-wrenching 
experience I have encountered in my recent memory. It was that 
gripping, that tragic.
    Since January 2000, I have visited Libby nine times. I have 
dedicated one staff person nearly full-time to focus on the 
issues this problem has generated. At my direction, that person 
has visited Libby 103 times since then. I would like her to 
stand. Where is Rebecca? There is Rebecca. She is aces. She 
runs our Kalispell office, but she has been up to Libby 103 
times in the last 2 years only on this issue.
    I held a field hearing during this committee in Libby 2 
years ago and two town hall gatherings since then. I have 
opposed the Fairness Asbestos legislation during the 106th 
Congress, because I think that legislation would improperly 
restrict victims' rights to sue for damages. I have heard from 
the Agency for Toxic Substance Disease Registry to secure funds 
to complete two rounds of medical screening for the community. 
I have also urged USATSDR to be sensitive to developing a 
customized approach for serving Libby because it is so unique, 
our situation at Libby. I have asked the EPA's efforts in Libby 
to ask EPA to assist by seeing to it that additional cleanup 
dollars are sent to Libby--more than otherwise would have been 
the case.
    Former Secretary of Health and Human Services, Donna 
Shalala has helped secure emergency funding for Libby, and 
Secretary Tommy Thompson has also been very helpful.
    We are also fortunate to enlist the help of the University 
of Montana and their Center for Environmental Health Sciences 
as they begin to identify potential cures for asbestos-related 
disease.
    The bottom line is that Libby is left with a massive 
asbestos contamination problem, both in town and at the mine 
site. It is everywhere. Another photo here--This is a picture 
of the mine site, obviously from the air. Libby is also left 
with a huge public health crisis, as hundreds upon hundreds of 
folks will need expensive long-term medical care. We will hear 
from some our Montana witnesses about that. How should care be 
provided? Who is going to pay for it? Who is going to insure 
those who are ill?
    I continue to hope that W.R. Grace will step up to the 
plate, but Grace has shown again and again that they will step 
away from any and all responsibility for what they did to the 
people of Libby, MT. Grace has filed for bankruptcy. Grace has 
been denying claims for health coverage. It has been reported 
that Grace has managed to hide at least $4 billion in assets, 
that is, transfer at least $4 billion of assets so the people 
of Libby cannot seek damages against the company.
    It is just too much to ask a rural community in 
northwestern Montana to deal with this all on their own. They 
need help. That is what we are here to talk about. I would like 
to get a sense from EPA of what they are doing, what they have 
accomplished so far in Libby, where they are going, how they 
plan to get Libby a clean bill of health. We will also hear 
from the Agency for Toxic Substances and Disease Registry about 
their efforts, particular of inspector screenings and care for 
Libby residents. Dr. Falk testified at the committee's field 
hearing in Libby back in February 2000. I will be interested to 
hear his perspective on how far we have come, and his taking 
stock approach and how far we have yet to go.
    I hope to also hear about what has been learned from the 
tragedy in Libby. That is other information that will help us 
do a better job of protecting people from the dangers of 
asbestos. I applaud our State's Governor. She, as we say in the 
vernacular, fired the silver bullet. As we know under CERCLA 
law, a State Governor has one opportunity to trigger a process 
which speeds up the determination of whether EPA will designate 
a site as on the national list of registry of sites to be 
cleaned up. She did that, and I applaud her for taking that 
action. I also appreciate Representative Rehberg's efforts on 
the home insulation issue in Libby, and Senator Burns has been 
helpful as well.
    So essentially we are here to take stock about what has 
happened and to see what else we have yet to do in Libby. Libby 
needs our help. We are here to provide it. This issue is 
particularly important to me. I am not going to let Les down. I 
am not going to let the people of Libby down. I know everyone 
in this room feels the same way.
    I would also like to introduce our first witness, a 
terrific Senator, Senator Patty Murray from Washington. Patty 
was gracious enough to let me testify in a hearing that she 
chairs. That was a short while ago. It was at that hearing we 
were able to secure the promise of various government agencies 
to come to Montana. We are very glad that they did. Senator 
Murray has been extremely concerned about this issue as it 
affects her people in the State of Washington. We are very 
honored to have you here, Senator. I know what a fighter you 
are for your people in Washington. At the conclusion of your 
testimony, you are more than welcome to share the dais and just 
help your people as we help Montana's.
    Senator Murray.

STATEMENT OF HON. PATTY MURRAY, U.S. SENATOR FROM THE STATE OF 
                           WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman. Thank 
you for your passion on this issue and helping us finally get 
it to the attention of the Nation as you have seen the 
struggles in your State. It is such a critical issue. We would 
not be at the point we are without your tremendous work, and I 
really appreciate your having this hearing today on Libby, MT 
and on the health and environmental problems caused by asbestos 
contamination from that W.R. Grace vermiculite mine.
    I really appreciate the opportunity to testify before your 
committee today as well. Your leadership on this issue has just 
been essential, and none of us would be where we are today if 
it was not for that, and I really appreciate it.
    Senator Baucus. Thank you.
    Senator Murray. Mr. Chairman, I first became interested in 
this issue in 1999 because of a series of articles by Andrew 
Schneider about Libby in the Seattle Post-Intelligencer. As you 
know, I can relate to the people of Libby because my mother 
grew up in Butte, MT and like Libby, the main industry in Butte 
is mining. I know first-hand that these communities believed 
the government was protecting them from health problems caused 
by air and water pollution from mining.
    I also became interested in this issue because Libby is 
only 160 miles from Spokane, WA and many people from Libby have 
received medical treatment in Spokane. Last year, I chaired a 
Senate Health, Education, Labor and Pensions Committee hearing 
on asbestos exposure and worker safety, and Dr. Alan Whitehouse 
from Spokane testified. He has treated about 500 patients from 
Libby. While most people thought only miners and their families 
could be exposed to dangerous amounts of asbestos from mining, 
many of his patients are sick just because they lived in Libby. 
Approximately 25 percent of his patients did not work in the 
mine or live with someone who did. Twenty-four of his patients 
have died in the last 3 years, and five who died were sick only 
from environmental exposure.
    The issue is also relevant to my constituents because like 
most other States, Washington has many sites which processed 
Libby vermiculite that was contaminated with asbestos. The 
chart that I have behind me displays all of the sites in the 
United States which have received vermiculite from Libby. This 
map of the United States should tell every single Senator that 
this is not a problem somebody else has. It is a problem they 
have.
    Of the approximately 300 sites which process this mineral, 
the Environmental Protection Agency and the Agency for Toxic 
Substances and Disease Registries have determined that 22 sites 
require further cleanup. One of these sites is the former 
Vermiculite Northwest, Inc. and then-W.R. Grace plant in 
Spokane. That plant began producing Zonolite insulation in 
1951. Even though the plant closed down in the early 1970's, 
recent tests by EPA have found some soil samples from the site 
still have asbestos concentrations of up to 3 percent. EPA is 
strongly recommending that access to the site be restricted 
almost 30 years after that plant closed down.
    At many plants where vermiculite from Libby was processed, 
waste rock left over from the expansion process was given away 
free, as the chairman noted. People used that free waste rock 
in their yards, in their driveways and in their gardens. The 
other picture you see shows Justin and Tim Jorgensen climbing 
on waste rock that was given out by Western Minerals, Inc. in 
Minneapolis, MN in the late 1970's. According to W.R. Grace 
records, that rock they are climbing on contained between 2 and 
10 percent tremolite asbestos. This rock produced airborne 
asbestos concentrations 135 times higher than OSHA's current 
standard for workers.
    Thankfully, today neither Justin or Tim has shown any signs 
of disease, but their risks of developing asbestos diseases, 
which have latency periods of 15 to 40 years, are increased 
from their childhood exposures. Mr. Chairman, I showed this 
picture several days ago at a press conference that I had, and 
this morning I came into the office and received an e-mail 
message from Lizzie Jorgensen who is the mother of the two boys 
in this picture. I want to read it to the committee this 
morning.

    Greetings. Yes, please eliminate asbestos. Those two boys playing 
in the free rock are my sons. Justin and Tim's father, Harris 
Jorgensen, suffered long and hard with asbestosis and lung cancer. He 
died June 22, 1991 at the age of 44. An autopsy shows asbestos in his 
lungs. We lost that case in Federal court. Like Harris said, we may not 
have gotten anything out of this, but maybe it will help someone else. 
At this time I wonder, do my sons have to suffer also? It may be too 
late.

    Senator Murray. From Lizzie Jorgensen, the mother of the 
two boys playing in that rock.
    Today, people may still be exposed to harmful amounts of 
asbestos and vermiculite. Between 12 million and 35 million 
homes and businesses may have Zonolite insulation. This may be 
the case for up to 150,000 homes in my State alone. EPA has 
also tested agricultural products, soil conditions, and 
fertilizers made with vermiculite and determined that some 
workers may have been exposed to dangerous amounts.
    As I learn more about Libby and how asbestos had ended up 
in products by accident, I was shocked to learn that asbestos 
is still being used in products on purpose. While some specific 
uses have been banned, the EPA's more sweeping ban was never 
put into effect because of a lawsuit backed by the asbestos 
industry. As a result, new uses of asbestos were banned, but 
most existing uses were not banned. Today, asbestos is still 
used to make roofing products, gaskets, brakes and other 
products. In 2001, the United States consumed 13,000 metric 
tons of it. Asbestos is still entering the product stream in 
America despite all of the known dangers to human health.
    In contrast, asbestos has been banned in at least 20 other 
countries. It is time for the United States to ban asbestos, 
too. I want to ensure our government does all it can to 
minimize future suffering and death caused by asbestos. That is 
why a few days ago I introduced the Ban Asbestos in America Act 
of 2002. I want to thank Senator Baucus for being an original 
cosponsor and I appreciate the cosponsorship of Senators 
Cantwell, Dayton and Wellstone as well.
    The Ban Asbestos in America Act of 2002 has four parts 
which I would like to just briefly mention. First, this bill 
protects the public by requiring the EPA to ban asbestos by 
2005. Like the regulations EPA finalized in 1989 under the 
TSCA, companies may file for an exemption to the ban. EPA may 
issue the exemption if there is no substitute material 
available and the exemption will not pose an unreasonable risk 
of injury to public health or the environment.
    I would like to take a moment to point out to the 
subcommittee the connection between what happened in Libby and 
EPA's efforts to ban asbestos. Last year, the EPA's Inspector 
General conducted an investigation into why the Agency did not 
do a better job of protecting the people of Libby. I was struck 
by one of the sections of the Inspector General's report in 
which a letter written by EPA in 1983 is as follows: 
``Asbestos-contaminated vermiculite is considered a lower 
priority at this time than problems posed by friable asbestos-
containing materials in school buildings and commercial and 
industrial uses of asbestos.''
    In 1979, EPA had issued an advance notice of proposed 
rulemaking that it intended to explore options to control 
asbestos under Section 6 of the TSCA. In 1982, EPA issued a 
reporting rule under Section 8(a) of TSCA to gather information 
about commercial and industrial uses of asbestos. EPA's 
proposed rule to ban asbestos was published in the Federal 
Register in January 1986 and the final rule was published in 
1989. One of the reasons EPA did not spend more time focusing 
on asbestos-contaminated vermiculite was the Agency was working 
on the asbestos phase-out and ban rule. Unfortunately, that 
rule was overturned by the Fifth Circuit Court of Appeals in 
1991.
    There is a clear relationship between EPA's efforts to ban 
asbestos and the fact that the problems in Libby were 
overlooked. I am saddened that EPA did not spend more focused 
time in Libby, in part because of a competing effort to limit 
asbestos exposure--an effort which ultimately failed.
    Second, the bill requires EPA to conduct a public education 
campaign about the risk of asbestos products. We need to warn 
people today that their home insulation, if made with 
vermiculite may be contaminated with asbestos. While EPA has 
agreed to remove vermiculite insulation from homes in Libby, 
the Agency currently has no plans to do this nationwide. The 
Ban Asbestos in America bill requires EPA and the Consumer 
Product Safety Commission to educate consumers about how best 
to handle this insulation within 6 months. The Ban Asbestos in 
America Act of 2002 also requires EPA to conduct a survey to 
determine which foreign and domestic products consumed in the 
United States today have been made with asbestos. EPA has 
estimated that as many as 3,000 products still contain this 
mineral.
    Third, the legislation invests in research, tracking and 
treatment of asbestos diseases. It requires a national 
mesothelioma registry which would be coordinated with ATSDR's 
existing efforts pertaining to Libby, as well as with the 
National Institute for Occupational Safety and Health. The bill 
also authorizes funding for seven mesothelioma treatment 
centers nationwide to improve treatments for and awareness of 
this fatal cancer.
    Finally, the bill requires EPA to expand its Blue Ribbon 
Panel on asbestos to address issues beyond the six regulated 
forms of asbestos, as EPA originally promised in its response 
to the Inspector General.
    Over the years, asbestos has taken a staggering toll on our 
country. We have recently been reminded of the dangers posed by 
asbestos because of concerns about asbestos exposure from the 
dust and the debris caused by the collapse of the World Trade 
Center towers. Had this country acted swiftly to ban asbestos 
when public health evidence about its dangers first emerged, 
the Towers would not have been built with any asbestos at all. 
Now, we will need to wait probably several decades to determine 
whether asbestos exposures in New York will cause asbestosis, 
lung cancer, or mesothelioma for our first responders and 
residents.
    I hope this subcommittee, which has primary jurisdiction 
over the Ban Asbestos in America Act, will consider holding a 
hearing on this bill in the near future, and move it as quickly 
as possible.
    Thank you again, Senator Baucus, for your tremendous 
efforts on behalf of the people in your hometown and really 
across the entire country.
    Senator Baucus. Thank you, Senator, for your very, very 
dedicated work here. You have done a great job, worked very, 
very hard on this. That is clear from your testimony, and clear 
from your statement. We would be honored to have you come up to 
the dais.
    OK, let's hear from our next panel, which consists of 
Marianne Horinko, Assistant Administrator for Superfund at 
Environmental Protection Agency; Dr. Henry Falk, Assistant 
Administrator for the Agency for Toxic Substances and Disease 
Registry; and Dr. Gregory Wagner, Director of the Division of 
Respiratory Disease Studies at the National Institute for 
Occupational Safety and Health.
    Ms. Horinko, why don't you proceed? We have a 5-minute rule 
here, but due to the nature of this hearing, we may relax that 
a little bit. If you could generally stay within 5 minutes, 
that would be--and your statements automatically will be 
included in the record.

STATEMENT OF MARIANNE HORINKO, ASSISTANT ADMINISTRATOR, OFFICE 
   OF SOLID WASTE AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Horinko. Thank you.
    Good morning, Senator Baucus and Senator Murray. I am 
Marianne Horinko, Assistant Administrator of EPA's Office of 
Solid Waste and Emergency Response. It is a pleasure to have 
the opportunity to appear before the subcommittee once again.
    Today, I represent Governor Christine Todd Whitman to 
discuss EPA's efforts to clean up asbestos contamination in 
Libby, MT and describe what steps EPA is taking to address 
potential asbestos contamination at other sites throughout the 
country. I wanted to let you know that although Governor 
Whitman could not appear today, I can assure you that 
protecting the health of the residents of Libby remains one of 
her top priorities.
    EPA is committed to working with our State and Federal 
partners to take the necessary steps to protect public health 
and the environment in Libby and at related sites. I want to 
thank Senator Baucus particularly for his tireless efforts in 
helping to ensure that the community of Libby is protected 
through the cleanup of asbestos contamination.
    As we all now know, many decades of mining and processing 
vermiculite ore contaminated with asbestos has left the 
community of Libby with significant health impacts. Those 
health impacts include cases of mesothelioma, an incurable and 
often fatal cancer of the chest cavity, increased risks of lung 
cancer, and the debilitating respiratory illness asbestosis. To 
address the asbestos contamination in Libby and the related 
health impacts, EPA, working closely with the Agency for Toxic 
Substances and Disease Registry or ATSDR, and the U.S. Public 
Health Service mobilized an emergency response team to work in 
Libby. In 1999, ATSDR and PHS, funded by EPA, started medical 
investigations in Libby to determine the magnitude of asbestos-
related health impacts. The medical investigations documented 
evidence of widespread disease and mortality resulting from 
asbestos exposure.
    Starting in 1999, EPA began emergency investigation and 
cleanup activities in Libby. After interviewing numerous 
residents and collecting more than 5,000 samples, EPA found 
high amounts of asbestos-contaminated vermiculite at the mine, 
the mine road, processing areas, the mine tailings pile and 
pond, and in residential areas of the community. In June 2000, 
EPA started and provided oversight for the cleanup of two 
former processing areas to address some of the highest levels 
of asbestos contamination. EPA has also started cleanup actions 
at the mine road, the high school track and city park 
facilities.
    EPA plans to start additional cleanup actions at mining 
facilities and in the community.
    I am pleased to report that on May 9, 2002, EPA approved a 
new action memorandum amendment significantly expanding cleanup 
work at Libby, including certain residential contamination in 
homes with vermiculite insulation. The Agency determined that 
this material did fall within our response authorities, 
particularly given the unique circumstances found in Libby with 
both cumulative exposure and also multiple pathways of 
exposure. EPA also determined that the remaining asbestos 
released in Libby would not have been addressed by any other 
authority in a timely manner.
    EPA is removing vermiculite ores and mining waste from 
residential yards and expects to begin removal of vermiculite 
insulation from homes within 1 week. We expect to complete 
cleanup at 55 priority properties by the end of this summer. 
EPA is also working with ATSDR to study other locations across 
the country that received shipments of vermiculite from Libby. 
The Agency initially identified 240 locations for study, and 
has determined that 22 require additional investigation. EPA is 
sharing its findings with other State and Federal agencies to 
provide the information necessary to decide whether further 
action is needed.
    One example of a situation warranting a shared Federal and 
State approach is the asbestos contamination discovered at the 
Western Minerals processing site in Minneapolis, MN. Western 
Minerals is estimated to have processed more than 100,000 tons 
of vermiculite ore from Libby, MT. The waste material generated 
from this processing was made available to residents as foam 
material for driveways and yards. The State and EPA have 
conducted sampling and have been removing asbestos 
contamination from the former plant and from residential yards. 
ATSDR is currently funding a survey by the Minnesota Department 
of Health to determine the health impacts on former plant 
workers and nearby residents.
    In conclusion, you have my commitment and the commitment of 
Governor Whitman that EPA will continue its work with other 
State and Federal agencies to protect the public health of the 
residents of Libby, as well as the health of other communities 
that may have been affected by asbestos-contaminated 
vermiculite from Libby.
    Thank you again for this opportunity to share our work, and 
I will be pleased to answer any questions that the subcommittee 
or Senator Murray may have.
    Senator Baucus. Thank you, Ms. Horinko.
    Dr. Wagner.

   STATEMENT OF GREGORY WAGNER, M.D., DIRECTOR, DIVISION OF 
      RESPIRATORY DISEASE STUDIES, NATIONAL INSTITUTE FOR 
                 OCCUPATIONAL SAFETY AND HEALTH

    Dr. Wagner. Good morning, Senator Baucus, members of the 
subcommittee, Senator Murray.
    I am Dr. Gregory Wagner, Director of the Division of 
Respiratory Disease Studies of the National Institute for 
Occupational Safety and Health, known as NIOSH. I am pleased to 
be here today to provide testimony on health risks to workers 
from asbestos and to discuss NIOSH research related to Libby, 
MT.
    NIOSH is a public health research institute in the Centers 
for Disease Control and Prevention at the Department of Health 
and Human Services. We conduct research and make 
recommendations to identify and prevent work-related illnesses 
and injuries. My testimony today will address our knowledge 
about health risks to workers from exposure to airborne 
asbestos and asbestos-like minerals, opportunities for better 
prevention of asbestos exposure and disease, past NIOSH 
findings with respect to asbestos contamination in Libby, MT, 
and our ongoing research related to Libby.
    Asbestos, as you know, is a term that refers to a group of 
naturally occurring fibrous minerals. The connection between 
inhalation of asbestos fibers and a number of serious and often 
fatal diseases is well recognized. Asbestos is a known human 
carcinogen. The diseases it causes, both malignant and non-
malignant, are often fatal and most are preceded by years of 
debilitating illness.
    Although the use of asbestos has been reduced or eliminated 
in many commercial products, asbestos and asbestos-containing 
materials are still found in many occupational and industrial 
settings and pose a risk of exposure to workers and others. 
Asbestos is also found in manufactured products such as gaskets 
and building materials. Construction and maintenance workers 
involved in building, demolition and renovation or in asbestos 
removal are at particular risk for asbestos exposure. In 
addition, take-home exposures to families of workers in which 
exposed workers bring home asbestos on their clothes, hair or 
shoes is also a well-recognized hazard.
    Asbestos is regulated by the Occupational Safety and Health 
Administration, the Mine Safety and Health Administration and 
the Environmental Protection Agency. Federal regulations define 
asbestos as a half-dozen minerals--chrysotile, crocidolite, 
amosite, tremolite, actinolite, and anthophyllite. In 1990, 
testimony to OSHA, NIOSH broadened its science-based definition 
of asbestos beyond the six specified asbestos minerals, basing 
our definition on scientific evidence from studies suggesting 
that fiber dimension, specifically length and diameter and 
fiber durability and persistence in the body, are more critical 
than the specific chemical or elemental composition in 
causation of asbestos-related disease. The NIOSH asbestos 
definition encompasses certain variance of the six regulated 
minerals, as well as so called ``cleavage fragments'' that can 
be generated from non-fibrous mineral forms of these six 
asbestos minerals.
    Our studies of vermiculite workers in Libby began in 1980, 
when OSHA asked NIOSH to provide technical assistance to 
investigate lung problems in workers at a plant using 
vermiculite that had been mined in Libby. Shortly thereafter, 
the Mine Safety and Health Administration also requested 
technical assistance from NIOSH to investigate the magnitude of 
health hazards in vermiculite mines. In response to these 
requests, NIOSH undertook epidemiologic studies in Libby, MT 
between 1980 and 1985. Our studies showed that occupational 
exposure to mineral fibers that contaminated Libby vermiculite 
caused high rates of asbestos-related diseases among exposed 
workers. The mineral fibers included tremolite, one of the 
currently regulated asbestos minerals. However, some recent 
evidence indicates that only 10 to 20 percent of the fibrous 
minerals contained in Libby vermiculite was tremolite. The 
remaining 80 to 90 percent of the fiber contaminant has been 
characterized as several other similar fibers, such as 
richterite and winchite. These fibers are not currently 
classified as asbestos by mineralogists or regulated as 
asbestos.
    NIOSH played a pivotal role in documenting the health 
hazards associated with occupational exposure to asbestos-
contaminated vermiculite at the Libby mine and made our 
findings available beginning in 1985 through meetings in Libby 
with workers and their representatives, employer 
representatives and members of the community. NIOSH also 
published its findings in several scientific papers to alert 
the occupational health community.
    It is clear in hindsight that further work remained to be 
done, specifically further studies of downstream users of Libby 
vermiculite products and better tracking of exposed workers and 
others. NIOSH is applying what we learned from our experience 
at Libby to our current and future activities, both in Libby 
and throughout our program.
    NIOSH is following up on potential exposures of workers who 
use or process vermiculite from sources other than Libby. The 
degree to which vermiculite from these other sources is 
contaminated with asbestos is not clear. At OSHA's request, 
NIOSH is conducting environmental sampling at expansion plants 
and horticultural operations where vermiculite is used. We are 
also updating our mortality study of the Libby miners studied 
previously and working with the EPA on a variety of their 
studies as well.
    Additional research possibilities that NIOSH is considering 
include efforts to better determine the physical and/or 
chemical characteristics affecting toxicity of both 
manufactured and naturally occurring fibers. There is currently 
no direct evidence by which to attribute particular health 
effects to each possible fiber type. Epidemiologic studies of 
people exposed to manufactured and natural fibers would be 
useful, as well as studies conducted with animals to obtain 
mechanistic and other toxicologic data.
    Also, the current analytic method for determining airborne 
fiber concentrations do not count the fibers that are too small 
in diameter or length to be detected. Additional work to 
improve and standardize the methods for asbestos fiber 
measurement would further advance prevention and control 
measures.
    In summary, we know much about the adverse health affects 
caused by the inhalation of asbestos fibers. However, many 
research questions remain. Further research is needed to better 
characterize the work environments where contaminated 
vermiculite may be used and to determine whether vermiculite 
from sources other than Libby is also contaminated with 
asbestos. We need to increase our understanding of the health 
effects of fibrous minerals that fall outside the definition of 
asbestos and improve tracking of people potentially exposed to 
hazardous fibers. While information continues to be gathered, 
public health prudence requires that vermiculite from the Libby 
mine or products containing vermiculite originating in Libby be 
considered potentially dangerous. Proper precautions should be 
taken to minimize the generation and inhalation of any dust 
during the handling of these materials until analysis of the 
particular vermiculite or vermiculite-containing product shows 
that it does not produce an asbestos hazard.
    Thank you, Senator Baucus.
    Senator Baucus. Thank you, Doctor, very much.
    Dr. Falk, welcome back.

STATEMENT OF HENRY FALK, M.D., ASSISTANT ADMINISTRATOR, AGENCY 
           FOR TOXIC SUBSTANCES AND DISEASE REGISTRY

    Dr. Falk. Thank you very much, and good morning Senator 
Baucus, Senator Murray.
    My name is Henry Falk and I am the Assistant Administrator 
of the Agency for Toxic Substances and Disease Registry, a 
public health agency within the U.S. Department of Health and 
Human Services. I am accompanied this morning by Sharon 
Campolucci, who was the coordinator of our medical testing 
program in Libby.
    Senator Baucus, ATSDR is grateful for the interest and 
support given by you and other members of the subcommittee and 
of the Montana delegation since we began working in Libby in 
late 1999. As you know, we came to Libby in response to 
concerns expressed by yourself, community members, former 
vermiculite mine workers and the health department. Over the 
last several years we have worked very closely with the U.S. 
EPA, the State of Montana and others to address these concerns. 
Without the support of all of you, we would not be able to 
report today on the progress that we have made in evaluating 
public health issues in the Libby, MT community.
    We have been actively involved with citizens and public 
health and environmental officials to determine the extent of 
harm to humans from asbestos-contaminated vermiculite that was 
mined in Libby. In the earliest phase of our effort, we 
developed a plan to help guide our activities in the Libby 
area, and as we have shared with you in the past, this public 
health response plan identified the areas of responsibilities 
for the conduct of our health-related activities. We have 
worked on that plan with various members of the community, 
including officials there to provide input in developing our 
public health efforts.
    I am going to give a very brief update on a number of 
activities that we have undertaken. First and foremost, in the 
medical testing program, and, as Senator Baucus noted, in the 
summer of 2000, we conducted medical tests on 6,149 adults in 
the Libby area. Of those, 18 percent showed pleural 
abnormalities, and of the former W.R. Grace workers included in 
that testing, 48 percent showed such pleural abnormalities. 
Most of the participants in that effort reported multiple 
routes of exposure.
    We conducted a second phase of medical testing in the 
summer of 2001 with an additional 1,158 participants. The 
preliminary analysis of that data does not suggest any 
significant change in the prevalence of abnormalities from the 
first phase.
    Again, as Senator Baucus noted, we conducted a mortality 
review for a 20-year period which demonstrated that asbestosis 
rates in the Libby area were at least 40 to 60 times higher 
than expected. The mortality review also suggested mesothelioma 
occurrence was elevated, and we expect to release an updated 
mortality review by early July.
    We have several other investigations, such as looking at 
the potential value of CAT scans in addition to chest X-rays in 
evaluating individuals. Those are nearly complete and will be 
reported on in the near future.
    We have done detailed planning and preparatory work for 
development of a registry of former Libby area miners and 
household contacts; and also, a key source of registrants will 
be those who participated in the medical testing program. We 
sponsored a workshop in February to consult with and solicit 
advice from experts in respiratory disease and asbestos to help 
guide the next steps for the Libby registry. The registry is 
intended to be a long-term effort that will not only be a 
repository of information and facilitate further studies, but 
also enable information that may come about in the future on 
treatment and other medical breakthroughs to be given to all 
the members of the registry.
    We are currently working with the State to support 
localized planning addressing future medical needs. There is a 
need, as you know, for extended medical testing to continue in 
some form for many years. We would like to see the primary 
responsibility for the medical testing program transition to 
the State and local health departments with ongoing technical 
and resource support from ATSDR.
    We have worked in close cooperation with Region VIII HHS 
staff to help the community identify sources of assistance for 
medical care. As you know, HHS Deputy Secretary Claude Allen 
visited Libby last September and was instrumental in developing 
the HHS response. We are very concerned about the other sites 
that have received asbestos-contaminated vermiculite. You have 
seen the chart this morning of the many sites. We are working 
together with EPA to evaluate and prioritize those sites. We 
will be visiting a number of these sites this summer and we 
hope to be able to determine the extent of exposure and 
possible health effects from those sites as we proceed.
    One site that has already elicited considerable attention 
is the Western Mineral Products site in Minneapolis, MN. We 
have been working with the Minnesota health department to 
collect further information on exposure and potential health 
effects at that site. We've also developed a protocol for use 
by State health departments to review their vital statistics 
and cancer registry data at many of these sites. We have 
cooperative agreements with six States to look at statistics 
for sites within their State, and we hope to involve several 
more States this year.
    In addition, we've been working with four States to 
evaluate the mesothelioma data within their States and look for 
potential relationships to vermiculite or other sources of 
asbestos.
    In summary, I would like to reiterate that we share your 
concerns about the situation in Libby. It may seem very dry to 
summarize results like this very quickly, but we understand the 
human impact of these health problems. We share your concerns 
and we want to do as much as we can. Much remains to be done.
    Our primary goals for the coming year will be to implement 
the registry of former workers and family contacts, to 
establish the medical testing program on a long-term basis by 
transitioning primary responsibility to State and local health 
departments with technical and resource support from ATSDR, to 
conduct further epidemiologic investigations on the links 
between environmental exposures and development of disease, and 
to provide data on potential health effects in other States 
that had vermiculite processing centers that may have led to 
harmful exposures. Finally, we continue to work on the 
mesothelioma surveillance activities, together with NIOSH.
    With your continued support, ATSDR stands prepared to 
continue our work and we will do whatever we can to help people 
in Libby and in Montana and at any other sites that may have 
been afflicted with these problems.
    This concludes my testimony. I would be happy to respond to 
any questions. Thank you.
    Senator Baucus. Well, thank you very much, Doctor. I know 
you've worked hard on this. We appreciate it.
    Senator Murray has another hearing she has to attend, in 
fact, chair in about 10 minutes from now. So I'm going to turn 
to her for questions and give her an opportunity to ask all the 
questions, take all the time that you want.
    Senator Murray. Thank you very much, Mr. Chairman, and 
thank you all for being here today to testify before this 
committee on this really critical project.
    Ms. Horinko, I'll start with you. I did speak a few months 
ago with Governor Whitman about this issue, and I am sorry she 
could not be with us today. If you could just share with her my 
concern again and let her know I appreciate her efforts as we 
work to clean up Libby.
    I am particularly concerned about the other sites 
throughout the country which process vermiculite from Libby. 
Now that Libby has been declared a Superfund site, do you think 
that any of the other sites which require further cleanup, such 
as the site in Minneapolis, MN, will also be declared Superfund 
sites?
    Ms. Horinko. Senator Murray, at the moment we are working 
under our emergency removal authority, which does not require 
us to declare a site a Superfund site in order to conduct 
emergency actions. That is how we have done the work thus far 
at Libby. At the moment, it does not appear that any of the 
other 22 sites may need to be declared a Superfund site. Our 
work at those sites is just starting, and that may not rule out 
Superfund site declaration at some of these others. At the 
moment, that is not our plan.
    Senator Murray. At the 22 other sites, you do not think 
there is enough contamination at this point that you are going 
to declare them to be Superfund sites?
    Ms. Horinko. Not at this point, but let me stress that we 
are in the preliminary stages of sampling and cleanup at many 
of these sites, and further investigation may reveal 
contamination that may lead to listing one of these sites on 
the NPL, the Superfund National Priorities List.
    Senator Murray. When do you expect us to know that?
    Ms. Horinko. As we continue to collect data, if additional 
high levels of contamination turn up at one of these sites, 
then we will inform you of that. At the moment, none of the 
information we have indicates that Superfund site listing is 
warranted.
    Senator Murray. Could you please talk to us today about the 
current status of your efforts to work with MSHA to investigate 
contaminant asbestos problems at the other mines throughout the 
country?
    Ms. Horinko. We have looked at the other three mines in 
addition to Libby. We have not found a pattern of asbestos 
contamination that in any way approaches what we have seen at 
Libby at the other mines. I do not know if you want a comment 
at all about some of the work that MSHA or NIOSH has done, but 
at the moment none of the other mines appears to even approach 
the profile of contamination that we have seen at Libby.
    Senator Murray. Dr. Falk, do you want to comment on that?
    Dr. Falk. I think in general that I would agree with that. 
We had contacted early on the State health departments related 
to those other mining areas, and they were not seeing the kinds 
of problems that were seen in Libby. I do not have the specific 
information with me, but I could get that.
    Senator Murray. Do you mean that you are not seeing people 
who have asbestosis, mesothelioma or----
    Dr. Falk. It is my understanding from those State health 
departments that they were not seeing those kinds of increases.
    Senator Murray. Just out of curiosity, how do you track 
that, since sometimes or a lot of times people move away. Libby 
has a fairly high retention of citizens, which is one reason it 
was seen early on. Some of these other mines--I mean, we are 
talking 30 years ago. As the people moved away, that public 
health department may not even be aware of it.
    Dr. Falk. Yes, you are correct. People will be aware of 
cases that occurred in that area, and we are not aware of those 
that may have moved away. For example, in Libby the asbestosis 
rates are so high, and the mesothelioma cases are apparent. So 
you are correct that maybe some further formal study might 
identify cases elsewhere, but we are not aware, at least from 
within those communities at the moment, without going back and 
tracking down people who moved away, of those increases.
    Senator Murray. Ms. Horinko, is your office currently 
participating in EPA's Blue Ribbon Panel on asbestos?
    Ms. Horinko. We are not formal participants in the panel, 
but we work very closely with the Office of Pollution 
Prevention, Pesticides and Toxic Substances which is headed by 
my counterpart, Assistant Administrator Steve Johnson.
    Senator Murray. But your office is not involved in the Blue 
Ribbon Panel itself?
    Ms. Horinko. I do not know if we are formal members of the 
panel, but my staff is working very closely with the staff in 
that office and we will track the deliberations of this panel 
very closely and the research that is gathered.
    Senator Murray. Can you give me any update on the status of 
the panel, where they are?
    Ms. Horinko. My understanding is that the panel will 
formally convene its discussions this summer and is expected to 
produce a report early in 2003. The panel will also be 
conducting a web-based stakeholder outreach and research 
collection information so that they can get as much research 
and as much information as they can from stakeholders, as well 
as provide information, disseminate information about the state 
of knowledge as we currently understand, as well as information 
related to safeguards and precautions that people need to take 
in dealing with vermiculite products.
    Senator Murray. Is EPA still planning on limiting the scope 
of that panel to just the six regulated forms, or are you 
looking at expanding it?
    Ms. Horinko. My understanding is that we fully expect the 
dialog to encompass all forms of asbestos contamination.
    Senator Murray. One more question for you--in your 
testimony, you said that the activities in Libby will require 
an additional $21 million in fiscal year 2003. EPA's budget 
justification for the Superfund program does not list sites, as 
you know. I assume the Administration included the $21 million 
needed for Libby in its budget request?
    Ms. Horinko. We fully expect to spend that $21 million in 
Libby in 2003.
    Senator Murray. Are those funds needed just for Libby, or 
do they address the other 22 sites as well?
    Ms. Horinko. Whatever funding we need to address all of the 
22 sites, in addition to Libby, we will include in the budget 
request for 2003.
    Senator Murray. Is that part or your request now, or are 
you going to be looking for future dollars for that?
    Ms. Horinko. That is included in our current budget 
assumptions.
    Senator Murray. Dr. Wagner, in your testimony you said that 
between 80 to 90 percent of the fibrous minerals in the 
vermiculite from Libby are fibers that are currently 
unregulated. Do you think the Federal Government should 
reevaluate regulating these minerals?
    Dr. Wagner. I think it is really important to do the 
scientific work to be able to understand the importance of 
durability, bio-persistence and how this creates hazards. At 
this point, we believe that fibers that are like asbestos in 
their physical qualities should be treated with the same 
caution.
    Senator Murray. OK. You said that NIOSH made its findings 
about the health affects of vermiculite on workers in Libby 
available in the occupational health literature way back in 
1985. It took newspaper articles in 1999 and Senator Baucus' 
leadership to get Federal agencies to mobilize to really 
address this problem in Libby. Share with us what in your 
opinion why more attention was not paid to NIOSH's findings way 
back in 1985 and since then?
    Dr. Wagner. I think that we did what was normal at the 
time, which was publication in the scientific literature, 
communication with the employers and with the employees and 
with the community residents. The kinds of things that we are 
doing now involve a broader communication of the risks that we 
identified. I think that the communication was perhaps just pro 
forma to the regulatory agencies, but not with specific 
meetings and more direct engagement.
    Now, I think the coordination and communication among the 
government agencies that are interested and involved in the 
occupational and environmental hazards is really far better 
than it was 15 or 20 years ago. I think that we have also been 
more effective in our public communications. For example, I 
opened up my USA Today and saw on the front page a story 
relating to an investigation our division is doing on serious 
lung disease in a popcorn factory. I think we have been more 
effective in engaging with the States, engaging with other 
Federal agencies, engaging with the media and with the public, 
and that these are all important lessons that we learned that 
we should have done better back in the 1980's.
    Senator Murray. Mr. Chairman, I really appreciate you 
letting me testify today and ask questions. I do think public 
education has got to be part of this because many of these 
people, it was 30 years ago that they were exposed. I had a 
constituent out here 2 days ago who went to the doctor with 
lung problems, and the doctor insisted it was not related back 
to his contamination with asbestos and absolutely refused to 
believe it. There is a lot of public education that needs to 
take place. There is a long time between when somebody was 
exposed to this, and when they actually come down with the 
diseases. Many doctors, hospitals, health care clinics have no 
idea unless we educate people so that these people can be 
diagnosed quickly. We need to go back and figure out how to 
treat people and to make sure we are doing the preventive 
things that we need to do today, and to make sure doctors are 
aware of this.
    So we have a lot of work ahead of us.
    Senator Baucus. You are right, Senator. In fact, sometimes 
listening to this conversation and thinking about it, maybe we 
need a Homeland Health Protection Act----
    Senator Murray. Yes, I agree.
    Senator Baucus [continuing]. To coordinate all the health 
resources and all the agencies to deal with some of the 
lethargy.
    Senator Murray. Well, I hope we can at least ban asbestos 
so that 30 years from now we are not having another hearing.
    Senator Baucus. I very much compliment you for introducing 
that legislation.
    Senator Murray. Thank you.
    Senator Baucus. Thank you, Senator.
    I would like to do something a little bit unconventional 
here. That is, in an effort to get to the heart of the matter, 
I would like the rest of the panelists here to kind of move 
over to the end, and I am going to ask the other panelists to 
come up and testify right now. We are going to have a little 
dialog here among everyone--that is, the current panelists and 
the second panelists--so that we are more likely to get at the 
heart of the matter. We will try and find some more chairs. 
Will you all come up please? All of you--Dr. Spence, Dr. Black, 
Ms. Cohan, and Commissioner John.
    [Laughter.]
    Senator Baucus. OK. I deeply appreciate the other witnesses 
and the first panel remaining to be part of this effort. Thank 
you very, very much. I appreciate taking the time.
    OK, Dr. Spence, why don't you proceed first, and then we 
will go on with Dr. Black and Ms. Cohan and Commissioner 
Konzen.

   STATEMENT OF MICHAEL SPENCE, M.D., STATE MEDICAL OFFICER, 
     MONTANA DEPARTMENT OF PUBLIC HEALTH AND HUMAN SERVICES

    Dr. Spence. Senator Baucus, thank you very much. I 
appreciate the opportunity to be here and discuss this very 
important Montana issue.
    As everyone is well aware, this all started with an article 
that appeared in the Seattle Post-Intelligencer in November 
1999. I remember it well because it was a week before 
Thanksgiving. We were having a meeting with Region 8 discussing 
bioterrorism and our grant application. We got a phone call 
from the then-Administrator, Bill Yellowtail who told us to 
deploy to Libby and find out what was going on. We went there. 
We met with Brad Black. Over the ensuing months with the help 
of EPA and ATSDR, we developed a testing program. The testing 
program over that period was based on information that we 
received by conducting meetings with several experts throughout 
the Nation on asbestos, on lung disease, and on asbestos-
related problems.
    The bottom line is that as Dr. Falk pointed out, 6,149 
people were screened that first summer. Of that population, 18 
percent or approximately one in five was found to have 
asbestos-related disease. That is to say that if you walked 
into the Libby Cafe, which is a downtown eating facility, and 
looked around and there were 60 people in there, which it will 
hold, somewhere about 5 or 6 of those individuals have 
asbestos-related disease. They are suffering from this entity. 
They may have mesothelioma. They may have lung cancer, or they 
may have asbestosis. But that many do have it.
    A second round of testing was conducted the following 
summer. Again, we added another 1,000 to that and preliminary 
results show that the rates are going to be about the same, as 
Dr. Falk pointed out.
    We have a major problem in Libby. This was not minor, and 
this many people being affected with this severe disease. We 
take a look at those individuals in which there is no evidence 
of a background of exposure--5 percent of the population in 
Libby have evidence of asbestos-related disease with no known 
exposure. That is 2.5 times higher than previously had been 
reported in any other study of populations at large. So we know 
that the background from just the fallout of being a resident 
of Libby is significant and puts you at increased risk. One in 
twenty develop severe disease.
    We looked at the population at Libby and tried to estimate 
what our health care needs are going to be over the future 
months. One of the things that became very clear--we did a 
survey of the people coming in for the first round of testing 
and found that 24 percent of the population is uninsured, have 
no visible means of insurance. When you take a look at that 
sub-population of those people that are insured, interestingly 
enough many of them have policies in which their deductible is 
in the $500 to $1,000 to $2,000 to even $5,000 deductible--
basic catastrophic insurance. So we are talking about a 
population that is terribly underinsured or uninsured.
    Furthermore, the population has an unemployment rate that 
is twice the State average--over 11 percent of the population 
of Libby are unemployed, where the State average is 5.3 
percent. So we are talking about individuals that have no 
visible means of support to get insurance to pay for their 
health care costs.
    How do we pay for those costs? If they qualify for 
Medicaid, yes, they can, but not everyone does. As you know, 
there are many Federal restrictions on Medicaid. Is a white 
lung program available? No, sir, it is not. That might be one 
of the answers that we may have to address, because the 
problems that we are encountering now are only going to 
magnify. It is estimated that this will continue on until the 
year 2030 at least and maybe thereafter with regard to disease 
because of the latency of this problem. As I think you know, 
asbestos does not affect you immediately. It affects you over 
years, and it takes 10 to 20 to 30 years before the 
ramifications of this disease become apparent. The disease has 
three forms--mesothelioma that was pointed out, a very unusual 
and uncommon tumor, one that causes rapid death. The person 
that gets this particular tumor can expect a life expectancy of 
less than 1 year from date of diagnosis. Cancer of the lung is 
again another major problem that we have to worry about because 
the population has that. In addition, asbestosis--the most 
common form of disease that we see, is one in which there is 
slow scarring covering the surface of the lung, and the 
scarring is slow and insidious in onset, and basically the 
patient is smothering to death over a long period of time. It 
takes 10 to 20 years to die, and all that time they are getting 
shorter and shorter of breath. It is not a very pleasant way to 
die, I would not imagine.
    As Dr. Falk pointed out, there has been a tremolite 
asbestos registry initiated, and we are working very closely 
with ATSDR to do that. In addition to that, we are looking 
forward to initiating further screening in the State of Montana 
of Libby registrants and also to try to identify individuals 
from that registry that might be willing to come to Montana for 
screening and doing it locally, using our resources there. We 
hope that we can indeed identify the large number.
    Another thing that we have done is we have undertaken a 
look at mesothelioma in the State of Montana. Since 1979 when 
we had tumor registry statistics, we have found over 150 cases 
of mesothelioma. Not all of them are in Libby. They are 
throughout the rest of Montana, which proves the point of the 
movement of this ore. It was transferred over to various 
screening plants, as was pointed out on that map. In addition 
to that, it was transported all over the United States. What we 
are finding is cases of mesothelioma in areas where there are 
major railheads and also where there was previous screening. 
When we look at it county by county, we can find massive 
excesses in major ports or major cities in our State, compared 
to the rest of the State where indeed asbestos was not 
transported or the ore was not transported. This is a major 
concern.
    We have to look at other future health care needs. The 
Health Department is also looking at immunizations of these 
people to protect them against respiratory diseases such as 
pneumonia and influenza and other projects, so there are many 
health care needs we are going to meet.
    I think as was pointed out by Senator Murray earlier, the 
Ban of Asbestos Act, if it were to go into effect today this 
very minute, it would not be until the year 2042 until we would 
start seeing possibly some relief from this terrible illness.
    I want to thank you for the opportunity of being here. That 
is the conclusion of my remarks. Thank you very much, Mr. 
Chairman.
    Senator Baucus. Thank you, Doctor. That was very, very good 
testimony. I appreciate that.
    Ms. Cohan.

   STATEMENT OF PAT COHAN, COORDINATOR, CLINIC FOR ASBESTOS 
                        RELATED DISEASE

    Ms. Cohan. Good morning. Thank you for inviting me here.
    My name is Pat Cohan. I am a nurse. I have been a nurse for 
29 years. For the last 2 years, I have been involved with the 
health care needs for a community related to the asbestos 
exposure. My introduction to the asbestos disaster was in the 
year 2000 when I accepted a grant position funded by HRSA to 
assist and cooperate and work with the ATSDR in the screening.
    The job was two-fold. One was to serve as the outreach 
nurse for the screening, in which I handled any medical 
emergencies, health care concerns or urgent referrals relating 
to the screening. The second part of the position was to help 
create a clinic that would assess, diagnose and educate people 
with health care concerns related to the screenings.
    The Center for Asbestos Related Disease, also called the 
CARD Clinic in Libby, was created through St. John's Lutheran 
Hospital and with the cooperation of all the other health care 
providers in the area. The volume of calls, drop-in visits, 
people with frantic questions and need for education was just 
unbelievable the first year. Of the over 6,000 people who were 
screened, I probably saw half of them at one point or another 
just answering questions. The clinic now has over 1,000 active 
charts, and of these close to 800 show signs of asbestos-
related disease or asbestos-related changes that may develop 
into disease. Each of our clients and their family members have 
received health information and education related to pulmonary 
health.
    In my position as a nurse, the breadth and depth of the 
psycho-social, the emotional health and financial concerns 
associated with this disaster has been without precedent. I 
have been in most cases first at hand to see the results of 
this. As with your introduction with Les Gramstad, I get to 
hear a lot of stories that strike home. To sit and listen to a 
client talk about going hunting in the hidden mountain valleys 
and having accidents because he will not allow his children to 
watch him die the way he watched his father die is pretty hard 
to take some days.
    I have worked to find financial resources for a 47-year-old 
woman who never worked at the mine, was the daughter of a 
miner, to help her find funding to have a lung biopsy done 
because she was suspected of having mesothelioma. This young 
woman had quit her job housecleaning because she thought it was 
the chemicals that were making her short of breath. This person 
waited over 3 months to hear whether she would even be accepted 
into the Grace Medical Plan which right now is a major source 
of medical care or help for these folks.
    Some of the stories are just so twisted and convoluted it 
is hard to sort out what the client really needs. A woman who 
is approaching 60 who cares for her elderly mother, both of 
whom have asbestos-related diseases, comes to me with 
complaints that she has been washing her dishes in the tub for 
2 years because her kitchen is plastic-sheeted off and duct 
tape closed because of the leaking insulation in there. It is 
hard to figure out what she needs first, a kitchen or a sink or 
health care needs.
    I have a neighbor who resided in Libby for over 40 years. 
This gentleman started the ambulance in Libby before there was 
one. He has served on every volunteer committee in the town--
never complains, only works hard. He was never a miner. He 
never gardened with it. The only exposure he could think of was 
that the Zonolite was in his home for his insulation. This is a 
man who has hiked and skied every mountain in the Cabinet Range 
and in Glacier before it was the thing to do. He worked 
tirelessly for our community in this volunteer role. He can no 
longer hike. He does not volunteer. He just sits and breathes.
    I have used the word ``disaster'' most deliberately. This 
is a slow-motion disaster, as we call it. Had a mine had a 
toxic leak and it killed 200 people outright and injured 
another 1,000 with 20 percent of them critically injured, I 
would not be here. I would be home in the emergency room. Just 
because this took 20 to 30 years to come to the surface, does 
not make it any less of a disaster. It just makes it slower.
    I cannot really talk about what the rock or the mineral 
properties are. That is not within my scope of care. I can only 
talk about the human disaster that I see and the effects on my 
neighbors and my friends, and strangers who come to the clinic 
who rapidly become friends because our clinic is about the only 
place where people feel safe or comfortable talking about this.
    This was not--this disaster did not happen because it was 
an act of God. It did not happen because of some ideological 
conviction or religious belief or anything. It was created 
because somebody needed a profit. It was a very profitable 
enterprise. The people in Libby did indeed get great benefits 
from the mine when it was working and the income because there 
are not many places to earn a living back in the north woods. 
But the people, the miners were treated with no respect. The 
citizens of Libby were treated with less regard than they 
treated the over-burden of rock up at the mine.
    This disaster is not over with. It is going to continue for 
the next 20 to 30 years. It is not a matter of waiting for the 
few affected people right now to die off and the problem to go 
away. We are worried about the children and the grandchildren 
who were exposed up to 2 years ago at the public schools, at 
the track at the grade school. We already know the kids and 
grandchildren were affected financially and emotionally. We are 
just waiting to see what the health effects are going to be.
    What Libby needs, I see three things. We need research to 
find treatment, cure, cause or even a blood test to figure out 
who has been exposed. We need health insurance or a health care 
program that will be available for the length of time needed. 
We need the facility to monitor the health care effects and the 
progression of this disease.
    I would like to take the opportunity to thank everyone who 
has been involved in Libby--the agencies, the ATSDR and the EPA 
and Health and Human Services. The representatives that they 
have sent in Libby have made an enormous difference in how well 
this has progressed. People have come to Libby and rapidly 
become adopted Libby citizens just because of the fine job they 
have done.
    I also want to take the opportunity to thank our whole 
Montana delegation, and particularly you, Senator Baucus. Your 
visits, your care and your concern have been very evident, 
particularly through Rebecca's multiple visits. So thank you.
    Senator Baucus. Thank you very much, Pat. That was one of 
the more compelling statements I have heard. I thank you very, 
very much.
    Dr. Black.

STATEMENT OF BRAD BLACK, M.D., LINCOLN COMMUNITY HEALTH OFFICER 
       AND DIRECTOR, CLINIC FOR ASBESTOS RELATED DISEASE

    Dr. Black. Good morning, Senator Baucus.
    I feel very fortunate to be here. This is a privilege to 
really be here where I can do something for Libby. Certainly, 
without your support, I would not be here, and I appreciate the 
committee taking the time to listen to Libby.
    I have been a physician in Libby for 25 years. I served as 
the county health officer for the past 18 years, and have been 
a very active community member. I could go on for quite a while 
based on my history in Libby. I have a lot of background. But I 
think I am going to tell you a brief background story today, 
and then I would like to emphasize three points.
    Let me start with the background. When I came to Libby in 
1977, I was aware of asbestos-related disease in workers 
because my partner who was a practicing internist, had related 
this to me. It was just somewhat of a surprise because in 
medical school it had been indicated that we probably would not 
see much more of this disease. They just basically covered the 
surface on it in medical school in terms of lung diseases.
    So we were both taken back a bit. But he became more 
inquisitive because he was county health officer then. This is 
the late Dr. Richard Irons. In 1978, he started probing into it 
farther, and entered conversations with the W.R. Grace 
management. He realized that they had improved their hygiene 
some in the mine because they had put in a wet mill in 1974, 
but he was still quite concerned because of the disease he was 
seeing.
    So he actually went all the way to headquarters to try to 
develop a working relationship with the company, because he was 
concerned. He clearly desired to work with them to reduce 
health risks from asbestos exposure to the Zonolite workers, 
their family members and the community at large. He was 
concerned about them. He recognize the hygiene concerns at that 
time. I do have that letter, but it was very clear in his 
statement that those concerns were there. Unfortunately, they 
were not acknowledged.
    It was shortly after this, in 1980, the EPA did their 
assessment and understood the potential hazards with 
vermiculite-associated asbestos. Unfortunately, that was not 
acknowledged either, and I think there was a lot of presumption 
by many of the physicians in the community that since the 
agencies had been involved, probably things were going to get 
better--that we were not putting people at risk.
    So in 1999, there was a reporter that had come through the 
community. I was county health officer. He was starting to ask 
me questions, and I was somewhat dumbfounded. I was not 
expecting those. The questions were about this wider exposure 
in Libby. So when this broke finally in the Seattle Post 
Intelligencer, as county health officer, I was still in 
disbelief that we could get that much exposure in the community 
to cause significant lung disease. I was still one of those 
doubters that we would have that much disease.
    It did not take me long, though, once I started probing, 
talking to Dr. Whitehouse, looking at the cases that were 
showing up that he had started noticing in the late 1990's. It 
became very evident that knowing the activities in Libby and 
where the ore had gone, I realized that we were probably into 
something bigger.
    The past several years have been painful, and they have 
been very humbling for a person that has been in this 
community. I have several friends that have developed lung 
disease and lost half their lung function. It was so insidious 
I did not even realize it. I was not taking care of them, but 
it is that subtle a disease, and insidious. You cannot help but 
say, ``Where did we go wrong? What could I have done.'' That is 
the difficult thing we have to deal with, especially when it 
gets to friendship and the closeness and you realize what has 
happened.
    These people do not complain. I think you know, Max, they 
are very hardworking people in Libby. They do not complain 
about very much, but people are concerned, of course, now.
    Let me make three points out of this. No. 1, I have spent 
these last 2 years delving into pulmonary medicine a great deal 
and working very closely with Dr. Alan Whitehouse, board-
certified chest physician in Spokane, who has seen a sizable 
number of people from Libby. The Libby exposure was extensive, 
and you have heard that already, but Pat and myself follow 
these people in the office after the screening. In other words, 
all the abnormal screens done by the ATSDR--I should not say 
all of them, but a high percentage of those--have been seen in 
our clinic. We found that the screening process has been very 
effective. Many of the people who have been screened out have 
been subsequently diagnosed with asbestos-related disease. So 
the figures that we see there are very real. That is, we may 
have up to 1,300 to 1,400 people out of the first screening 
that do have asbestos-related disease. That does not include 
the 2001 screening.
    No. 2, this asbestos-related disease in Libby, you have 
heard now that it is caused by a mixture of fibers. Tremolite 
certainly is one component. There are several other fibers. 
They are all very similar. They are in the amphibole series of 
asbestos. I know that is another confusing term, but it is 
different. We have seen things with it we have not seen 
reported in the chrysotile or the commercial asbestos 
exposures. Our experience has shown it to have a higher rate of 
progressive lung disease. Dr. Whitehouse has actually studied 
that in a population of his, and has found that there is up to 
70 percent of his people, no matter what they show up with on 
X-ray as far as degree of scarring, will tend to progress--I 
mean, 70 percent of them tend to progress. Some of them 
progress very rapidly. I included in this hearing a report on a 
gentleman exposed in a California expansion plant just one 
summer, and 50 years later he died of rapidly progressive lung 
disease from Libby asbestos--well-documented.
    Some of the non-occupationally exposed individuals have 
worse lung disease than the Zonolite workers that have been 
there more than 15 years. When you go through their exposure 
history, you would not expect that. You get this strong feeling 
of a potency here that nobody has recognized yet, and I think 
it is one of those things that needs to be sorted out. We do 
not know that for sure. Are the other exposures--were they 
unusually high? It is very difficult to tell. There is great 
concern over relative potency that is totally different. I 
think this needs to be looked into very seriously.
    No. 3, the incidence of malignant mesothelioma--the big 
word--is exceedingly high in Libby. The reports have been up to 
23 cases. This is a cancer, of course, that is rare--one in a 
million in the general population. In Libby, MT, it is 100 
times that. That rate is incredibly high. It is an ugly tumor. 
It is non-treatable and uniformly fatal. The tumor develops in 
the lining of either the chest cavity or the abdominal cavity. 
Those are the pain-sensitive areas of our body--very pain-
sensitive. It is an extremely painful and miserable tumor, to 
say the least.
    Just to give you an example of the exposure--we have six 
people that have developed mesothelioma due to non-occupational 
exposures. That is just incredibly high. Right now at this 
current time, we lost one gentleman that worked 3 months at the 
company. He died this year already. He was diagnosed in 
January; dead in a few months. He moved away from the 
community. I have another gentleman--the family called from 
Nevada. He worked in the Forest Service and was there 15 years; 
never handled the materials, just lived across the river and 
just a little ways up the river from the processing facility in 
town.
    Our most recent diagnosis was a well-known community 
member, school health nurse, and just a loved one of the 
community and now she is currently dying of mesothelioma. This 
has all happened since the--these last two have happened since 
I submitted testimony in April when the hearing was originally 
scheduled. So if that does not impact you as to adverse 
effects, the community is having to deal with now that the 
asbestos-related illnesses that we were fearful of are 
happening.
    I want to say this real quickly, because there have not 
been many people who have studied Libby asbestos. Dr. Alan 
Whitehouse is a clinician that really has studied it a lot 
clinically. Now, there is another investigator, Dr. Corbett 
McDonald from McGill--well, he was at McGill University and was 
actually brought in by W.R. Grace to study the workers at the 
same time NIOSH was doing their study. In other words, they 
carried parallel studies. Their observations were similar. They 
realized significant disease in these workers. What is 
interesting is Dr. McDonald followed these same workers since 
this broke in 1999. He had this to say, ``These vermiculite 
workers suffered severely from malignant and non-malignant 
respiratory disease.'' He found the death rate from 
mesothelioma was 10 times higher than it was for chrysotile 
miners--that is commercial asbestos--in Quebec. His opinion 
clearly is this stuff is significantly more toxic in terms of 
causing mesotheliomas. Once again, he has studied chrysotile 
extensively in the Canadian mines also, so he has some 
background in both fibers. So I think it means a lot when these 
people--the few that have investigated--recognize significant 
potency with Libby asbestos.
    In closing, I want to express concern pertaining to how we 
will be able to meet the asbestos-related health care needs we 
are sure to face over at least 20 or 30 years and maybe 
longer--it is hard to say. W.R. Grace has been providing 
funding for our CARD Clinic--that is the Center for Asbestos 
Related Disease that Pat and myself, where we see people. There 
is also a Grace insurance program; however, these past months 
has shown their commitment to caring for affected individuals 
is waning. It suggests that our support there is self-limited. 
Certainly, we need a lot of research and developing therapies 
is a high priority for us.
    Additional concerns--one, the exposures from W.R. Grace 
export plants all around in the United States and then areas of 
California (not related to Libby asbestos), where release into 
the environment of naturally occurring tremolite as a result of 
large-scale construction activities. Those are concern areas 
because we do not want things to happen other places when we 
know this particular type of fiber has the potency it does.
    I just want to thank you for allowing this opportunity, and 
I cannot thank you enough for your persistence and your 
advocacy for your Montana family.
    Senator Baucus. I appreciate that, Brad. Actually, the 
thanks goes to all of you; Pat, Dr. Spence, John, and all the 
others in the Libby community who have stepped up. I have seen 
it. You feel it. It is obvious and I thank you very much for 
all that you are doing to help the people.
    Mr. Konzen.

 STATEMENT OF JOHN KONZEN, LINCOLN COUNTY COMMISSIONER, LIBBY, 
                               MT

    Mr. Konzen. Thank you, Max. Thanks for the opportunity and 
for all the work that you have provided on behalf of Lincoln 
County and particularly Libby.
    Good morning. My name is John Konzen. I am from Troy, MT, a 
community just south and west of Libby, and serve as the county 
commissioner for Lincoln County. You have already heard about 
Libby, a community I have served both as a commissioner and as 
a member of the Board of Directors of St. John's Lutheran 
Hospital.
    Lincoln County is no stranger to the Federal family. Floods 
and forest fires dispatch Federal agencies to us regularly. Our 
county shares the Canadian border and a reservoir that 
straddles the international boundary, feeding the Columbia 
River Basin. There are endangered species and every other 
natural resource issue you can imagine. We struggle with 
double-digit poverty and unemployment rates. On the average 
day, it is fair to say that we are county with a lot on our 
plate.
    Before I became a commissioner, I served as a teacher and a 
school administrator for many years. I witnessed first-hand the 
effects that down cycles have on resource-based communities 
like the ones I serve today. I can tell you first-hand how 
families are affected when mills close or mines shut down. But 
most of you would have never heard about Libby or Lincoln 
County if it were not for tremolite asbestos.
    There was a time when the W.R. Grace mine was a good thing 
in our community. It meant jobs and good-paying ones. Men went 
to work every day to earn a living for their families. They did 
not step away from the responsibility, and I bet a lot of them 
would have gone to work every day even if they had known the 
risk that they were taking for themselves. That is what 
husbands and fathers do.
    But none of those men would have ever put their families--
their wives, their children or their grandchildren--in harm's 
way. Never, not a single one of us in this room, would have 
ever done that. But as you have already heard, Grace has 
allowed all of that to occur. There is an old saying that goes, 
``Many hands make light work.'' When Grace stepped away from 
their responsibility, they allowed the miners and the wives and 
the children of those men to do all the heavy lifting and to 
take on the risk Grace was unwilling to shoulder.
    As Grace continues to step away from even the small portion 
of responsibility they willingly accepted to help our community 
cover prescription drugs, home health and other medical costs, 
they are breaking us. Our tiny community's medical resources 
are already stretched very thin.
    It is not just our community alone which concerns me and 
other Montanans who have traveled here today to speak with you. 
As Grace increases the distance between the rightful portion of 
responsibility they must bear, they further harm the State of 
Montana.
    As Senator Baucus is well aware, people are our most 
precious resource in Montana. As I travel across Montana for 
regular meetings with other county commissioners in our State, 
commissioners tell me they are too concerned about the far-
reaching impact Grace's lack of responsibility will have. Many 
fear Grace's recent decision to no longer help with medical 
expenses of folks who have qualified for their own medical plan 
has the potential to bankrupt our own State Medicaid program.
    We appreciate the help the Federal family has extended to 
northwest Montana. We do not know where we would be without the 
help of the Department of Health and Human Services, the 
Environmental Protection Agency, the Agency for Toxic 
Substances Disease Registry, and Congress. Everyone is doing 
the heavy lifting--everyone, it seems, but Grace.
    I am here to thank Congress and the hard-working folks 
across the country for their support of our community. You have 
all done your part, and we cannot begin to thank you enough. 
But I would also like to add that W.R. Grace still has a place 
at our table. We need them to do their part.
    As Grace makes it way through the Federal bankruptcy court, 
there are several things I would ask this committee and those 
present to consider to set aside a separate trust fund, 
established by Grace, to cover the short-term prescription 
drugs and home health needs of the folks in Libby who are 
struggling with asbestos-related disease. I would also ask you 
to consider establishing a trust fund for the long-term health 
care needs and also to continue the support for the important 
research.
    I appreciate the questions that have been raised about the 
long-term funding for cleanup and the statutory authority for 
removing insulation in homes in Libby. Good health is all any 
of us can ask for. A clean bill of health is the most profound 
mark our Federal friends will leave upon our community.
    I appreciate your time and thank you on behalf of Lincoln 
County.
    Senator Baucus. Thank you very much, commissioner.
    I am going to ask questions now, and I would like various 
of you to be thinking of questions or points you might want to 
make to various other panelists. All of this is in a 
constructive mode. That is, we are not here to badger or to 
criticize, but we are just in a constructive mode on where do 
we go from here just to help the people of Libby. Although I 
strongly share Commissioner Konzen's view that W.R. Grace is 
very irresponsible here. They knew that asbestos was there. 
They knew that it causes disease and did not adequately warn 
people about it. They are now also significantly walking away 
from their responsibility in the community. So I do share that 
criticism with many of the panelists here.
    The first set of questions has to do with cleanup. I will 
ask Mr. Horinko those questions. Generally, the questions are 
around, like, how much? What is the timeframe? How much are you 
going to clean up? When do you think you will complete the 
cleanup? This is both on the ground and the insulation in the 
homes. Also the resource question--that is, do you feel you 
have the resources that you can dedicate to get the job done in 
the time that we have established? So Ms. Horinko, why don't 
you address those questions if you could please?
    Ms. Horinko. Thank you, Senator Baucus.
    We have had, as you know, a very aggressive cleanup plan 
underway now since 1999. In fact, we estimate that from 2000 
through the end of this fiscal year, 2002, we will have 
expended $60 million.
    Senator Baucus. I am sorry--$16 million?
    Ms. Horinko. Sixty million dollars--six-zero.
    Senator Baucus. Sixty--6-0.
    Ms. Horinko. Six-zero--$60 million, and as I said to 
Senator Murray, we anticipate spending an additional $21 
million in fiscal year 2003, and have planned for that in our 
budget assumptions, as well as planning for followup at the 
other sites nationwide where there are Zonolite concerns. As I 
indicated earlier, we have already addressed a number of the 
processing facilities, the mine roads, sealed off the mine, 
done work at the city park and the school tracks, and hope to 
have those completed shortly. We have done 12 homes on a pilot 
basis to see if the insulation could be safely removed and the 
dust cleaned. That has led us to believe that in fact we can do 
it. We plan next week, as I said, to start interior cleaning, 
as well as insulation removal in the homes in Libby and plan on 
doing 55 priority properties this summer. We also plan on 
working out from the export plant to do additional removal in 
businesses, yards, parks, as well as interior cleaning of some 
businesses and some development work to start a secure landfill 
cell for storage of the material, disposal of the material.
    Senator Baucus. Do you have some kind of a timeframe? Is it 
a short-term plan or a long-term? Let's take one at a time 
here.
    Ms. Horinko. Sure.
    Senator Baucus. Let's take first the cleanup of the 
community and the site and so forth. We will get into the home 
insulation next. But let's just talk first about the non-home 
insulation cleanup.
    Ms. Horinko. Sure.
    Senator Baucus. By when do you expect to have completed all 
action? Give us timeframe please.
    Ms. Horinko. Sure. In general, we believe in 2 years we 
will have completed all of the work that we currently have 
underway or are planning to have underway at Libby. Actually, I 
have got here a copy of the action memorandum amendment that we 
signed in May that I referenced in my testimony. It sets forth 
detailed tables, action description and status for each 
individual property, export plant, screening plant, the 
Raintree Nursery, the KBC Bus disposal area, and gives the 
current status and also our planned timeline. I will be pleased 
to make that available for the record.
    Senator Baucus. Do you have dollar figures representing the 
different aspects there? The $21 million you mentioned, that is 
for fiscal year 2003. How much do you plan to at least request 
to the Congress to spend in the next fiscal year? Do you know?
    Ms. Horinko. In 2003 or 2004?
    Senator Baucus. In 2004.
    Ms. Horinko. In 2004, we are just in the very preliminary 
stages of putting that budget formulation together right now.
    Senator Baucus. Would you expect it to be about the same?
    Ms. Horinko. I would expect it to be about level, if not 
more.
    Senator Baucus. Let me ask Commissioner Konzen, Dr. Black 
or Dr. Spence, any questions you have on timetable of cleanup. 
Does that fit? Does that seem to be in the ballpark of what you 
think can be done or should be done?
    Mr. Konzen. Correct. I think they had some problems with 
contractors.
    Senator Baucus. I have heard that, too.
    Mr. Konzen. They got off to a slow spring, but I think they 
are talking to the onsite Coordinator Paul that they are moving 
forward and they expect to do exactly what she is saying now.
    Senator Baucus. So you feel 2 years is reasonable?
    Mr. Konzen. Two years is very desirable. The quicker we get 
it cleaned up, the better we can move forward. I think they are 
presently working on our landfill situation and they have 
started clearing the timber in that area. So I believe there 
were contract issues.
    Senator Baucus. So if we could right here establish that 
our deadline is within 2 years, that is very much agreed upon 
and that is a reasonable deadline to get all that cleanup 
completed.
    Ms. Horinko. I believe we have committed to Governor Martz 
that in fact we will be in and out of Libby as quickly as we 
possibly can.
    Senator Baucus. I know that. I am just trying to find out 
what ``quickly'' means.
    [Laughter.]
    Ms. Horinko. In the Superfund world, 2 years is record 
time, so that is EPA thinking.
    Senator Baucus. We want record time here.
    Ms. Horinko. EPA is placing a very high priority on Libby.
    Senator Baucus. You have no concern at all about the 
resources--that is, the dollars will be available?
    Ms. Horinko. Libby is one of our highest priority sites. 
The Superfund budget in general is level. I do not see any cuts 
to Superfund, and so I am very confident that we will be able 
to move forward and continue to have Libby be a very high 
priority.
    Senator Baucus. Now, let's go to insulation. What is your 
plan there?
    Ms. Horinko. With respect to Libby or nationally?
    Senator Baucus. Libby.
    Ms. Horinko. With respect to Libby, as I said, we will 
begin interior cleaning including removal of the insulation 
next week. We have identified 55 priority properties that we 
hope to have done by the end of the summer, and we plan on 
continuing on to any homeowner or business within Libby that 
requests and we feel warrants removal of their insulation. In 
our action memorandum, we have planned for and budgeted 800 
homes, when all is said and done.
    Senator Baucus. When do you expect to have completed 
removal in all 800 homes?
    Ms. Horinko. In all 800 homes, that will probably take the 
entire 2-year timeframe.
    Senator Baucus. Within 2 years. Let me ask again, does that 
sound reasonable to you people in Libby?
    Mr. Konzen. No. I think they have a large task at hand, and 
I think they have committed the resources to do it if they have 
the funding.
    Senator Baucus. Do you have the funding?
    Ms. Horinko. Absolutely. That is included in this action 
memorandum.
    Senator Baucus. So the $21 million for fiscal year 2003 is 
both--is that right?
    Ms. Horinko. That is absolutely right. That encompasses all 
aspects of the cleanup.
    Senator Baucus. One slight question--the reason I am asking 
these questions is I am picking up that some people in Libby 
are wondering whether EPA is beginning to slacken a little--
backing off. That is, there was a time when EPA was there 
working hard and Paul Peronard was, boy, he was just going like 
gangbusters. There is a bit of a feeling, and this is just 
rumor, but still--that while Paul is still going like 
gangbusters, maybe his regional office and more particularly at 
the national office, that Libby does not have the same high 
priority that it appeared to have a few weeks ago. Dr. Black, 
do you want to comment on that at all?
    Dr. Black. There is clearly a sense in Libby that there has 
been some shift, and we sense, at least what we can tell, 
activities of Region 8 have been slowed some, but that is a 
perception we have had. I left this with--here, we built this 
trust and it has been building. We have built a very good 
trust. The agencies have performed excellently--EPA and ATSDR. 
Health and Human Services has initiated some activities also. 
It has been, you know, but I think we all respected Governor 
Whitman coming, and she came by the clinic, spent time with us. 
She understands the problem and I respect her a great deal. I 
think her commitment means something to Libby. I think we are 
worried about other politics, and Governor Whitman, we still 
support strongly her commitments and respect them. I hope they 
are carried through. I think that is important to us.
    Senator Baucus. That is right. Governor Whitman has been 
very good. She has visited Libby a couple of times and 
demonstrated her commitment. I have talked to her yesterday 
about appearing here today, and she had other business. She 
could not do it. I mentioned that same point to her, and the 
reaction I got was that while, like all Administrators have, 
they have a lot on their plate and lots of things they are 
thinking about and worrying about is--oh, well, gee thanks, 
Max, for telling me that; I'll check up on that to make sure 
that is not the case.
    But nevertheless, there is this perception in Libby that 
maybe things are starting to slacken off a little. I do not 
want to get this next person in trouble, but Paul Peronard has 
done a heck of a job in Libby. My view is whatever Paul wants, 
Paul should get.
    [Laughter.]
    Ms. Horinko. I listen to you, Senator, with some bemusement 
because all of us here, and you more so than I because he is 
with you every day, know Paul very well. I speak to Paul 
regularly. Any characterization of Paul as slacking off is just 
completely inconsistent with his personality.
    Senator Baucus. No, no. It is not Paul. The perception is 
not Paul. The perception he is not getting the resources that 
he needs. He is not getting the attention that he needs from 
either the regional or the national office. That is the 
concern.
    Ms. Horinko. Right. Well, I can assure you that at the 
national level, there has been significant attention, and at 
the senior regional level there has been significant attention. 
In fact, we have had regular meetings and conference calls. 
When I say regular meetings----
    Senator Baucus. We are not talking about significant 
attention. We are talking about full attention--the same full 
attention that Libby has been getting.
    Ms. Horinko. Right--the same full attention. In fact, I 
plan on traveling to Libby July 22 with our new Regional 
Administrator, Robbie Roberts, as well as the Deputy Regional 
Administrator Jack McGraw who has been out there many times, 
and doing a complete site visit and tour and checking up 
personally on the status of activities. So Governor Whitman and 
I are very concerned about Libby, regularly meet and discuss 
the status of what is going on at Libby, regularly checking 
with Paul directly. So at the very senior levels, you have our 
commitment and assurance. Governor Whitman generally is a very 
hands-on Administrator. She is not distanced from the field. In 
fact, in my program, the Superfund Program, she has been 
significantly involved in the decision to dredge the Hudson and 
cleaning up the Hart Building from anthrax, and emergency 
response at the World Trade Center, and then dealing with 
Libby.
    Senator Baucus. I appreciate that, but I just strongly 
encourage you and the Governor to directly call up Paul, talk 
to him and strongly encourage you to listen very favorably to 
what he says and recommends.
    Ms. Horinko. Absolutely.
    Senator Baucus. We have all known Paul now a couple of 
years, and he is one of the best public servants I have ever 
had the privilege to work with or meet.
    Ms. Horinko. I could not agree more.
    Senator Baucus. He is so dedicated to do what is right.
    Dr. Black.
    Dr. Black. I was going to say, he is really--the trust of 
the community with the Agency goes through Paul. He has managed 
to cross all barriers in the community. I think that we would 
all say that, wouldn't we? He has been remarkable in his 
ability to work with people of varying opinions and everything. 
I think he has everybody's respect in Libby. I sense that.
    Senator Baucus. I appreciate that.
    Ms. Horinko also, a slight question about hiring local 
contractors and local employees. I would appreciate it if you 
could address that concern as well, because there is that 
concern at Libby that maybe we are going out of State too much.
    Ms. Horinko. I will look into that, Senator. I am not aware 
of the mix of contractors that we are using, but I will talk to 
Paul and find out what mix of contractors and the extent to 
which he has really tried to reach out to local residents and 
have them directly involved in the cleanup.
    Senator Baucus. Why was it not necessary to declare a 
public health emergency with respect to the insulation cleanup?
    Ms. Horinko. Our lawyers looked at the situation and 
determined that we had adequate legal authority to go ahead and 
do the interior cleaning and remove the insulation without 
going to the step of declaring a public health emergency.
    Senator Baucus. Would anything be gained by making that 
declaration?
    Ms. Horinko. From a real-world standpoint, it made no 
difference. We will be doing exactly the same type of cleanup 
whether we declared a public health emergency or not. So from a 
technical real-world standpoint, it makes no difference 
whatsoever to the quality or the nature or the type of cleanup.
    Senator Baucus. How can you assure the people of Libby 
that, because they know that the Administration or the EPA did 
not make a public health emergency declaration? That is 
probably part of the concern. If it is not, are they going to 
work as diligently as they otherwise might? How can you 
reassure the people of Libby that there is no change whatsoever 
in effect?
    Ms. Horinko. One thing that we can do is share with the 
community our work plans for the interior cleanups and the 
insulation removal that were developed well before we made the 
decision not to declare the public health emergency. You can 
see that those are identical to the work plans and the 
technical specifications that are contained in our action 
memorandum today. So the work plans, our technical expertise, 
the amount of resources we will bring to bear are exactly the 
same as we had planned 6 months ago as they are today. So 
seeing that technical information, sitting down with Paul and 
the other folks at the site, and reviewing the quality of the 
work that we plan to do, and the haste with which we plan to do 
it will, I am hopeful, reassure the citizens.
    Senator Baucus. So the quality, the haste and the resources 
dedicated are exactly the same.
    Ms. Horinko. They are identical.
    Senator Baucus. Does the absence of a public health 
emergency designation say anything about the hazards of 
vermiculite home insulation?
    Ms. Horinko. It does not say anything about the hazards of 
vermiculite home insulation. Our Office of Pollution 
Prevention, Pesticides and Toxics is currently doing a study on 
vermiculite home insulation, and they are planning on releasing 
that study in August of this year. So that will be EPA's 
definitive statement about the hazards of vermiculite home 
insulation.
    Senator Baucus. OK, before we move onto other subjects, 
does anybody have any questions about the cleanup aspects?
    Mr. Konzen. Max, I have one concern. A lot of these folks 
work in about a 20-mile radius of Libby, which includes the 
community of Troy and out toward Kalispell. In talking to 
onsite Coordinator Paul, I am not sure whether they will go 
with that. About 20 percent of the workforce lived in my 
community, Troy. That is not on the attics to clean up and the 
homes to clean up. I would like to urge that that be looked at.
    Senator Baucus. I am sorry. John, what was that again?
    Mr. Konzen. About 20 percent of the workers that worked at 
W.R. Grace lived in my community and traveled. They also 
traveled the other way, some 15 to 20 miles outside of Libby, 
toward Kalispell into the mine. I realize they are very 
concerned about the long-reaching effects of this, but these 
are actual workers. This community hauled it back to its 
gardens and yards the same as the other ones did. That has not 
been on the plate yet.
    Senator Baucus. How about that, Ms. Horinko?
    Ms. Horinko. I can promise you that we will look into that, 
and if there are actions that are warranted to be taken, we 
will take them.
    Senator Baucus. When can you get back to us as to whether 
or not EPA plans to address those concerns as well? What is a 
reasonable date?
    Ms. Horinko. Within 1 month, we can get back to you.
    Senator Baucus. A month from now. OK. If you could let the 
committee know, and also the county commissioners at Libby 
know.
    Yes?
    Dr. Spence. Senator Baucus, another question I would have 
of Ms. Horinko is, we know that the ore was transported to 
various areas in Montana, including Great Falls where there was 
a popular exfoliating plant. I have no idea as to whether these 
have been studied, and I know that they have found hot spots 
along the rail line in Libby. Are there other hot spots along 
other railheads throughout the State of Montana that might be 
in need of cleanup?
    Senator Baucus. Do you know, Ms. Horinko, whether EPA has 
addressed that issue?
    Ms. Horinko. I know that we have tracked some 243 other 
places in the country where Libby ore was transported, 
processed or otherwise came to be located. We tracked that not 
only relying upon records that W.R. Grace maintained, but we 
separately went back to the Bureau of Land Management at the 
Department of Interior and looked at their records. This is 
part of this followup study that Henry Falk alluded to where he 
is working with a number of the States. So we can get to you 
the list of the places that we have tracked. If we have missed 
something, then we will certainly followup.
    Senator Baucus. Can you within that same month report on 
the question that Dr. Spence raised?
    Ms. Horinko. Absolutely. Yes, we will do that.
    Senator Baucus. I would appreciate that very much.
    OK, let's get off now into screening. Let me ask Dr. 
Spence, Dr. Black and Dr. Falk, I guess, where are we on 
screening in your judgment, and what more do we have yet to do? 
I suppose a lot of this is a resource question--where are the 
dollars to continue to screen, because this is a disease that 
sometimes is not noticed or is not determined and diagnosed 
until sometimes later.
    Dr. Spence. Well, interesting that you should ask this 
question because just this past week, I was in Atlanta and met 
with some of Dr. Falk's staff and we discussed ongoing 
screening activities. We will be initiating a request--they 
have initiated a request for proposal and we plan to put one in 
by July 10, to address screening in the future years. We hope 
to look at it for at least the next 5 years minimally, and this 
could possibly go to the year 2030, as I indicated when I was 
making my discussions with them.
    We hope to do the screening very similar to what has been 
done in the previous two rounds of screening--that is, to take 
a look at individuals that are indeed eligible by the criteria 
that we established when we initiated this process; that is, 
anyone that lived in Libby for a period of 6 months or more 
prior to January 1, 1991. Once that person is identified as 
being eligible, then we will request them to undergo similar 
screenings such as an epidemiologic questionnaire, radiographic 
evaluation, pulmonary function testing, and then followup 
looking at the current standards that are employed by the 
Occupational Safety and Health Administration for worker 
following, for pneumonic diseases.
    We would think that these individuals that show no evidence 
of any active disease should be screened on a periodic basis 
based on their age. At least currently, our thoughts are to put 
possibly two plans into effect, one that affected workers or 
those at highest risk and then another screening program at 
periodic intervals that would affect the nonworker population, 
but still individuals with risk based on the data that we have.
    Senator Baucus. What is this going to cost?
    Dr. Spence. A lot of money, Senator. I cannot put a dollar 
value on it today. I can tell you that to do such screening 
obviously we are going to need someone to staff an 800 line 
because we want people to call in and identify themselves. We 
will make the same services available. We will have the 800 
line. We will also need a coordinator for this program--an 
individual that is knowledgeable in asbestos-related disease; 
one that can be assured that the people get their educational 
needs met, as well as their health screening needs met; and 
that we do the entire testing--we do not just leave any part 
out.
    We are probably going to have numerous individuals that are 
going to call in from all over the United States. We do not 
think this is going to be limited to people in Libby or people 
in Montana in general. These individuals also are going need to 
be reassured and also given instruction in the event that they 
cannot come to Libby for the screening as to what they can do 
to identify whether they are indeed at risk or have evidence of 
disease.
    Senator Baucus. I appreciate that. Dr. Black, do you want 
to comment on this plan, please? How does it sound to you?
    Dr. Black. Well, we just had a moment to briefly talk about 
it. I think Dr. Spence knows we have always asked him when is 
it going to happen, because we have people coming every day 
now, saying, well, we couldn't get into town for the screening. 
That becomes a pretty regular question, I think, wouldn't you 
agree, Pat, with that? So we have the demand there, and I guess 
we are all for getting it going. But once again, it sounds like 
we are moving in the right direction.
    Senator Baucus. So when will this begin? Maybe Dr. Falk, do 
you want to chime in here? We're not going to get the proposal 
for a little while yet.
    Dr. Spence. I beg your pardon?
    Senator Baucus. We are not going to get the proposal--that 
is, you are not going to have this plan put together--or is it 
now?
    Dr. Spence. It will not be put together before July 10.
    Senator Baucus. July 10--OK.
    Dr. Spence. But I anticipate that I will have a written 
proposal in the hands of ATSDR on or before July 10 of this 
year.
    Senator Baucus. All right. Do you want to comment, please, 
Dr. Falk?
    Dr. Falk. Yes, thank you. I feel very strongly that we must 
establish the screening program to go on over time, and 
probably a very lengthy period of time. I think in the acute 
setting for the last several years, we have done this as a 
special feature in the summertime. We gear up and do it. But I 
think it is important for the long term to establish it on an 
ongoing basis to be done locally. It does not have to be done 
just in summer. People can do this throughout the year. It can 
be built into the facilities in Libby. We very much want to 
work with Dr. Spence and Dr. Black and figure out the best way 
to conduct this in Libby. We will be as supportive as we can of 
that.
    Senator Baucus. When do you think you will have this again? 
July 10, did you say?
    Dr. Falk. Yes, sir.
    Senator Baucus. How much do you think it is going to cost? 
Will you have a price tag?
    Dr. Falk. I am assuming a proposal that comes to us will 
come with a price tag, yes. We will look for that.
    Senator Baucus. You might also give some thought to where 
the dollars would come from. Be a little creative about that, 
too. I would like you to work with me and others in the 
delegation, because we have to work together to figure out how 
we are going to get the resources and make sure this is all 
done quickly.
    Dr. Falk. Yes, I think once we embark on something of this 
magnitude, if it is done properly and it should be, that we are 
not talking about a 1-, 2-, or 3-year program. We are talking 
about something for the next three decades.
    Senator Baucus. Right.
    Ms. Cohan, do you have a reaction to all this? Does it 
sound right to you or good to you, or what?
    Ms. Cohan. Yes. We get at the clinic an average of four to 
six requests a week from people out of town or people in town 
who for some reason or other missed the other screenings, who 
have worries and concerns about their lung health, but do not 
have the resources to go in and get a chest X-ray done. At the 
clinic, we work with different ways of getting this done, 
whether they have had a chest X-ray done in the last several 
years, and have them send to us. Dr. Black will review it and I 
will do an exposure history.
    So we have been trying to meet the needs in that way of 
people who have urgent concerns. I also have a waiting list of 
people who are saying, ``Well, when or if the screening comes 
up, let me know.'' So yes, it is definitely going to be needed. 
I am not sure what the volume will be, but it will be steady.
    Senator Baucus. Have you and Commissioner Konzen addressed 
sort of the psychological, social and financial scars at Libby 
as a consequence of this disaster, and what we might do to help 
the healing?
    Ms. Cohan. There is probably not a person in Libby today 
who does not know someone, love someone, or hated someone who 
has been affected by this disease. Even those people in Libby 
who do not believe that it exists--there are still those who 
believe it has been blown all out of proportion because it is 
easier not to believe than it is----
    Senator Baucus. In denial?
    Ms. Cohan [continuing]. In denial--definitely in denial. 
But they still all know somebody who has died of it. So that 
the psychosocial impacts have been such that at the clinic we 
came up with some key phrases or hand signals when either 
myself or my assistant, Ruth, start the interview process of 
seeing how scared somebody is, just to you know kind of give a 
hand clue of how much time it is going to take to spend with 
them. In an average medical clinic, it is very unusual to spend 
45 minutes to an hour with each new client or individual, but 
that is common. It is what we need to do just to get the 
education and bring the fear level down to a point where people 
can hear what you are saying.
    They just want to hear yes or no, but if you say yes, I see 
changes, then the panic level is so high they do not hear, 
which is why the education piece is so high. Through a 
contract, through FEMA and SAMSHA, which I think you are aware 
of, we do have a person in place who has been working to pull 
all the resources in the community together. We call it the 
C.O.R.A. project, Community Outreach Recovery Assistance, the 
outreach project in which the clergy, the schools, counselors, 
everybody--senior citizens center--anybody who will be involved 
with these people, are actually pulled together and being 
educated on the same level so that when someone comes to them, 
that the information is there to flow out.
    It has been a huge impact. There are third generation kids 
that I see who have been affected--definitely financially. At 
the time of life when most kids look to their parents for 
future support, getting through college, buying your first 
house--something of that nature, if your parents have used up 
all their resources treating an illness, these young adults do 
not have the kick-out money that we were fortunate enough to 
have to get started in life. So it has been devastated on more 
levels than just the illness part.
    Senator Baucus. I also want a comment on the group 
community efforts, and your long counseling sessions certainly 
help. Is there anything else that comes to mind here? Maybe 
John, Dr. Spence or anybody?
    Mr. Konzen. Just a couple of quick comments--there are 
still people in Libby that will not get tested because the 
ultimate is they find out they have it and it is incurable and 
they cannot do anything about it, so why do they want to know. 
That element is still out there.
    We found it difficult to recruit teachers, doctors, forest 
service employees who have options where they want to go, when 
they hear about Libby. They think it is a valley of death. They 
want to stay away from it.

    So we need desperately to get that bill of health stamped 
on Libby, and we need to get it cleaned up. We need to start 
re-selling the community, and we need to make sure people 
understand that it is a beautiful place and it is a safe place. 
If anything, that is the stigma that is attached to our 
community. We need to erase that.
    Senator Baucus. How would you go about erasing it?
    Mr. Konzen. The press has been very friendly for the 
biggest part. I think they can play a very important role in 
doing that, along with folks in the Federal family who may have 
expertise in that area. Maybe we can get some marketing company 
or something to come in and help us do that.
    Senator Baucus. I don't know. Maybe Dr. Wagner, is that 
something that NIOSH could do, or Dr. Falk--to help out a 
little bit? This denial issue--or Ms. Horinko, you are raising 
your hand.
    Ms. Horinko. Senator Baucus, we actually are getting more 
and more into the revitalization business at EPA, particularly 
with the passage of the new brownfields legislation, which 
really seeks to help de-stigmatize these communities. More and 
more, we are realizing our goal is not just to clean up 
communities, but to help revitalize them.
    Senator Baucus. That is very important, because that is a 
real concern.
    Ms. Horinko. When we stamp the cleanup done, we will not 
walk away is my promise to you.
    Senator Baucus. Again, it is one of the problems that the 
Commissioner has mentioned. It is not only that, but you know, 
if I have it, do I want to know and it is all that.
    Mr. Konzen. Max, one other thing--the affected population 
with tremolite asbestos is in Libby or the large portion of it 
is in Libby. I cannot encourage enough that the research occur 
there. I think it can be beneficial to the Nation as a whole as 
a result of that. Currently, we are going to be flying people 
to Missoula to have them tested, as part of the ongoing 
research at the University of Montana. I desperately would like 
to see that occur within our community--fly the pulmonary folks 
up to our community and have them do it there, rather than fly 
12 people down there.
    Senator Baucus. Dr. Wagner, can you help there, too, with 
the research? And Dr. Falk? I am just trying to look for some 
research efforts her from both of you. I think--and he makes a 
good point--the Commissioner makes a good point.
    Dr. Falk. It is a very good point. I think that when one 
looks at the time that it takes, for example, to develop 
pleural changes, it may be as little as 10 to 20 years, but 
mesothelioma diseases may take, let's say, 40 years to develop. 
There is that period of time between those two stages where 
people can be greatly benefited if we come up with new ways of 
intervening to stop progression of asbestos-related disease.
    So I think this research is absolutely essential. I am 
going on Monday to the conference in Missoula, and basically I 
would like to stress that challenge. As I think Dr. Black and 
Dr. Spence know, we did a workshop a while back with the 
National Institutes of Health to see what they knew about 
potential drugs or treatments on the horizon.
    Senator Baucus. Could we get somebody in Libby, because 
that is on the spot. That is where the action is.
    Dr. Falk. I think that is a very good point. It came up at 
one of the CAG meetings that I attended, and I was really very 
impressed that people said that they would be very eager to 
participate in that kind of research.
    Senator Baucus. You could work with Dr. Holian for example.
    Dr. Falk. Yes, I think maybe as we talk about how to 
develop the research program, some facility or some part of the 
program----
    Senator Baucus. I want to help, too, because the University 
of Montana was recruiting Dr. Holian from Houston a couple, 3 
years ago. So they asked me to call him up so I did. He said, 
``Yes, I would like to come to the University of Montana, but I 
need a lab.'' How much, $20,000 or $30,000? So we helped to get 
an appropriation for the lab and we have Dr. Holian. So all I 
am saying is I want to help. If you find somebody that we can 
designate to get up to Libby full-time on the research that is 
really good, let me know.
    Pat.
    Ms. Cohan. Thanks, Max. At this present time, Dr. Black and 
I are working with or cooperating with the University of 
Montana on a voluntary basis. I collect blood samples and do 
the histories and then freeze the samples. When I get enough to 
justify a trip to Missoula, I will go down and visit my godson 
and drop off the blood samples at the same time, which has 
helped. They have got over 200 blood samples. We are working on 
getting lung washing samples, which is the flying down to 
Missoula part, just because or the expertise needed in having 
the cells fresh and ready to be prepared there in Missoula, 
rather than in Libby, because it is, particularly in the 
summer, getting from Libby to Missoula with dry ice, it is 
pretty well melted by the time you get down there. So that 
having some facilities or a more convenient way of doing it, 
having someone who has got dedicated time right now. It is a 
voluntary basis that has been----
    Senator Baucus. Who is in charge of getting this aspect 
together? We are setting up dates and deadlines and things. We 
need somebody in charge of this. Who do you want to--Dr. Black, 
or you Pat, or Dr. Falk or Dr. Spence--who is most appropriate?
    Dr. Spence. Senator Baucus, this coming week, as Dr. Falk 
pointed out, we are going to be meeting in Missoula with Dr. 
Holian. In my former life, as I think you know, I was in 
academic medicine for 23 years. One of the things I did was a 
lot of research. I dealt with patients the last 9 years with 
HIV disease, and we did many of the same types of sampling of 
these individuals with regard to pulmonary samples as was 
required by this particular protocol.
    We did it in a storefront clinic that I had operated, and I 
think there are ways that we can do this. So I will look at it 
and get back to you.
    Senator Baucus. I was going to say, you are the man.
    Dr. Spence. Thank you.
    Senator Baucus. You have just been designated. You are in 
charge. We are talking about 1-month deadlines here. A month 
from now is going to be a big day. OK.
    Dr. Spence. I will call you on the 20th, sir.
    Senator Baucus. OK, fine.
    Dr. Falk, do you have anything to add?
    Dr. Falk. I will be happy to work with Dr. Spence.
    Senator Baucus. OK, I appreciate that.
    OK, now a little bit to the help. People get screened. They 
have the disease. They need help. They need treatment. I would 
like to talk a little bit about that. What is being done? What 
is available? What yet is needed? I think the Commissioner 
talked about a couple of trust funds. I don't know if that was 
with respect to this question or not. But you, Dr. Black, could 
you kind of lead off in terms of treatment? How far along are 
we? What needs yet to be done? These are people most of whom 
just do not have the resources to have the proper treatment. 
Somebody mentioned that 25 percent have no health insurance, 
and many of those who do are underinsured, very high 
deductibles, and the company is backing off and not helping 
very much. Why don't you lead off, Doctor?
    Dr. Black. As I have mentioned before, we have already had 
a number through here, and have currently about 850 people with 
asbestos-related disease. These people, because of the nature 
of this particular disease, we do not discard the so-called 
plaques or beauty marks that have been described in the past as 
being insignificant. We do not deal with them that way. We 
think these people need following on a regular basis.
    Dr. Whitehouse has indicated once a year. That is not 
typical. With chrysolite asbestosis, it is frequent to follow 
people at longer intervals. With this particular type of fiber, 
it requires closer--because of complications, higher 
complication rates and progression.
    Senator Baucus. What treatment is needed now?
    Dr. Black. The treatment is--well, that is--I think by the 
monitoring process, Senator Baucus, by monitoring people and 
doing the blood work and looking for markers in the blood and 
getting lung cells to study what is going on there with our 
cells of defense in trying to understand what is going on in 
the immune system with this disease, it will help elucidate 
some form of treatment. I think we certainly--there are some 
drug trials going on right now and there are things like that, 
but they are very limited because we have limited resources. 
Basically, those are dependent on a pharmaceutical company for 
the ongoing studies right now. I guess we see a need for more 
clinical research. I think it would be very important to 
correlate what is going on with the individuals, what is going 
on in their blood, what is going on with--those pieces.
    Senator Baucus. Let's break this down a little bit. One is, 
I guess, needed research. Does the state of medical knowledge 
now know enough to know what the treatment should be, given 
infinite resources? Or do we still need more research to find 
out what the treatment should be?
    Dr. Black. That is right. There is no treatment, certainly 
for the fibrosis that occurs with asbestosis and asbestos-
related disease, there is no treatment that has been shown to 
be effective. We only have one trial that I am aware of right 
now that we are looking at and needs further looking. But no, 
we are very--it has not been done, and the past has had poor 
outcomes in terms of the drug trials.
    Senator Baucus. How do we go about getting it done? Who 
wants to take a crack at that? Dr. Falk?
    Dr. Falk. There are two aspects to treatment. One is how to 
care for people who have, let's say, lung cancer or 
mesothelioma, which does not require research, but requires a 
lot of medical care and attention and time. But effective 
treatments will require research. That type of clinical 
research, I think, by and large has been the province of NIH 
and clinical centers. There are medications on the horizon that 
are coming along that may be helpful in intercepting the 
inflammatory process, the fibrosis process, but it will be an 
intensive effort to actually test those. I think part of 
Senator Murray's proposed legislation involves treatment 
centers as well. So I think there needs to be some really 
focused attention on intervening to prevent progression of 
these diseases.
    Senator Baucus. I am asking you as somebody who has worked 
in the area what is the best way to go about accelerating 
treatment? What is the most efficient way and the most 
effective way to begin? Maybe Dr. Spence, you have got some 
thoughts.
    Dr. Spence. Well, one of my thoughts on treatment, sir, is 
secondary prevention. We know that once a person developed the 
changes that they will progress, so we cannot prevent what has 
already happened to them. But hopefully we can in some ways 
delay the onset of some of the terrible aspects of this 
disease. One of the things that is a co-factor in the rapid 
progression of these diseases and also of asbestosis as well as 
the development of lung cancer is tobacco use.
    Certainly, we need a more concerted effort. We need more 
funding. We need an awful lot of work in the area, because we 
have people now that still smoke. We recognize full well that 
when you are diagnosed with lung cancer, once you get that 
diagnosis, you will probably quit smoking, but most people will 
smoke right up to the time they get that diagnosis. We still 
have many people with asbestos-related disease or at least 
asbestos changes in our community up there, as well as 
throughout the Nation, that continue to smoke cigarettes. I 
think we need some good smoking education. Certainly, the 
tobacco bill has helped to some degree, but as you know in 
Montana, that bill does not address all of our needs.
    Senator Baucus. What about resources? Given what is 
available in medical knowledge today, what about resources? Are 
people able to have the dollars to spend on the--I know the 
answer already--treatment that is available today? I would like 
you to just give us a--quantify the inadequacy of resources, if 
somebody could deal with that.
    Dr. Black. Here is an example. We do not know what our 
funding will be next year. Will W.R. Grace be there to support 
the clinic? We are seeing really negative directions there. We 
have uncertainty as to whether our clinic structure will--you 
know, what is the support of it? Because around that clinic, it 
would generate the capabilities of doing the ongoing screening, 
the monitoring and the research. So there are a lot of pieces 
here that are lacking resources. But the clinic's existence, I 
think, is critical to----
    Senator Baucus. The clinic is one. So what else in addition 
to establishing more certainty at the clinic--if you all knew 
the clinic is going to be there, and well-financed, what other 
needs are there?
    Mr. Konzen. Well, day one, when this thing first broke, 
there was a group of us that worked on a health trust with W.R. 
Grace, and never got off base. W.R. Grace would not accept our 
concept of a trust. Other companies have done this. We are 
aware of Asarco in East Helena and we thought that would have 
been a good clean way to take care of this problem.
    I just have some quick figures here that the medical plan 
that W.R. Grace now has in place, in the year 2000 spent 
$19,475 on patient care in Libby. In 2001, it went up to 
$745,000 and at 2002, 5 months into this year, it is already at 
$728,000. This gives you an idea what is going to happen as the 
sickness progresses along.
    That is a very big concern for the long-term health care 
for these folks. If there is not a stable source of funding, it 
is going to bankrupt not only the hospital situation, but also 
our doctors. That is a tremendous burden to put on them. And 
now the pharmaceuticals--they spent $171,000 in 2001 and 
$160,000 in the first 4 months before they came in and started 
doing their audit.
    Senator Baucus. Who spent that money?
    Mr. Konzen. That is the medical plan that W.R. Grace has. 
Those are the benefits that are being paid out.
    Senator Baucus. I see.
    Mr. Konzen. The question that we have asked W.R. Grace is, 
How long is this health plan going to be in place? Can you give 
us some time duration? The health plan is as good as the 
company, and the company is in bankruptcy. So what does that 
tell you? That scares us.
    Senator Baucus. Even with the health plan, though, can you 
address the adequacy of the health plan?
    Mr. Konzen. Correct. I think Dr. Black can maybe speak to 
the holes within the health plan.
    Dr. Black. Well, let me go back to when we started this. 
The Grace health plan was initiated. There was a lot of 
trepidation because the wording in their document really 
eliminated local physicians from being part of the diagnosis. 
As we got into the program, they were very lenient and they 
actually allowed myself and other physicians to apply or get 
people into the health plan. So it was a very nice gesture on 
their part to show they wanted to take care of Libby. I sent 
them a nice letter in February 2001 and Mr. Corcoran, I guess, 
had responded very favorably, saying it is nice to get 
something positive from Libby. I thought maybe they might 
change and show some interest in really trying to take care of 
the problem.
    Unfortunately, since earlier this year, we have seen an 
interest now to second-guess, question and utilize outside 
readers and things that insurance companies generally do not 
do, to assess these people and deny access to the plan.
    Let me give you an example, and then maybe it will make 
more sense to you. I had a recent case. A gentleman comes in. 
He had been short of breath. Anyway, we assessed him and I 
clearly thought he had some asbestos-related scarring on his 
lung, or the lining of his lung. I did another X-ray because it 
had been several years since his screening, actually. That is 
how late he was coming in. He had a new nodule, a possible 
cancer. So I referred him, and I told him, ``look clearly, you 
have plaques not only on your chest X-ray, but on your scan.'' 
So I sent his application into the health plan. I assumed he 
would get on the program. I told him I think they will help you 
with this, because lung cancers have a strong association. 
Especially with smokers, the asbestos exposure tremendously 
increases the cancer risk.
    And so, he had a surgery. Fortunately, we got an early 
cancer and it was cured. But also when the surgeon was there, 
he saw the plaqueing that I had described, the scarring on the 
lining of the lung that I had seen on my studies. I was very 
shocked when just a few weeks ago, I got a letter from the 
health network saying this gentleman has been denied on our 
plan. Our expert reader says he does not have asbestos-related 
disease, therefore the good news is, Mr. So-and-So, you do not 
have that disease that Dr. Black told you, and you do not 
qualify for the plan. That is the letter he gets.
    We are seeing this over and over, and I think they are 
going to question everything that we see. I am not saying we 
are that great, but I think we know a lot more about this 
particular type of scarring on the lung. It is not the typical 
look you see with the commercial type, and I think if you send 
a lot of our X-rays out to other people that are accustomed to 
looking at them, they miss this disease. It is subtle. It has a 
subtle, diffuse, thin scarring that builds up gradually. It is 
not seen by a lot of people.
    So we are just accustomed to it. I think it is a clinical 
diagnosis. They are taking it out of the clinical setting and 
they are just taking it to a radiologist, saying, does this 
person have disease or not? That is not the way we diagnose 
asbestosis.
    Senator Baucus. I appreciate that.
    We are going to have to conclude this hearing. I am trying 
to figure out, though, in my mind how on July 20 we get a 
health plan together here. I guess I will take that 
responsibility myself, to figure out how we develop that, but I 
am going to need a lot of help. The trust fund idea is a start, 
if we can persuade Grace to participate in addition to other 
appropriations. I do not know what we can come up here to help 
people who are suffering through no fault of their own, 
particularly as you explained, Commissioner. I agree with you. 
Some of these guys, even if they knew what was going on, they 
would go to work to put food on the table. But they certainly 
would no if they knew they were going to affect their families. 
That is just the nature of the people in Libby. That is really 
true.
    I thank everybody for coming today. I know you have taken a 
lot of time out of your day. Your morning is now over, 
virtually, so thank you so very much.
    Does anybody want to add anything? Has anybody said 
anything so outrageous it needs a response? Here is an 
opportunity to say something that is constructive and helps 
address--I see your leaning forward, Doctor.
    Dr. Spence. I have one parting salvo, Senator Baucus. We 
might note that a large number of our people in Libby that have 
this disease are over age 65. We have also demonstrated they 
have low levels of insurance. Many of them are eligible for 
Medicare, however, and they do not have a prescription plan for 
Medicare and they need these medications. We need to look at a 
national effort to get Medicare to put in a prescription plan.
    Senator Baucus. I could not agree more. I work as hard as I 
can to get that.
    Dr. Spence. I know you do, sir.
    Senator Baucus. I am working hard on that. That is another 
committee--the Finance Committee--that has jurisdiction over 
prescription drug benefits under Medicare. I just very much 
hope that Members of Congress realize the need and therefore do 
not politicize this issue as some are inclined to, that is one 
party blaming the other for not getting the job done. I am 
trying so hard to prevent that from happening. Just get the job 
done and get the benefits because people need the help, and 
forget the politics. I could not agree with you more, Doctor, 
and I am very glad that you made that point because I will be 
using that, too, in addition to all the other ammunition I have 
to help get the job done.
    Thank you very much. You are great Americans and I 
appreciate your service to the people of Libby and to our 
country. Thank you very much.
    [Whereupon, at 12 o'clock p.m., the subcommittee was 
adjourned, to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow.]
         Statement of Hon. Patty Murray, U.S. Senator from the 
                          State of Washington
    Senator Baucus, thank you for calling today's hearing on Libby, 
Montana and on the health and environmental problems caused by asbestos 
contamination from the W.R. Grace vermiculite mine there. Thank you 
also for giving me the opportunity to testify before this subcommittee. 
I applaud the leadership you have shown on this issue on behalf of the 
people of Montana and the entire country.
    I first became interested in this issue in 1999 because of the 
series of articles by Andrew Schneider about Libby in the Seattle-Post 
Intelligencer. I can relate to the people of Libby because my mother 
grew up in Butte, Montana. Like Libby, the main industry in Butte is 
mining. I know first hand that these communities believed the 
government was protecting them from health problems caused by air and 
water pollution from mining.
    I also became interested in this issue because Libby is only 160 
miles from Spokane, Washington, and many people from Libby have 
received medical treatment in Spokane. Last year, when I chaired a 
Senate Health, Education, Labor and Pensions Committee hearing on 
asbestos exposure and worker safety, Dr. Alan Whitehouse from Spokane 
testified. He has treated about 500 patients from Libby. While most 
people thought only miners and their families could be exposed to 
dangerous amounts of asbestos from mining, many of his patients are 
sick just because they lived in Libby. Approximately 25 percent of his 
patients didn't work in the mine or live with someone who did. Twenty-
four of his patients have died in the last 3 years, and five who died 
were sick ONLY from environmental exposure.
    The issue is also relevant to my constituents because like most 
other states, Washington has many sites which processed Libby 
vermiculite that was contaminated with asbestos. The chart you see 
displayed shows all of the sites in the United States which received 
vermiculite from Libby. Of the approximately 300 sites which processed 
this mineral, the Environmental Protection Agency (EPA) and the Agency 
for Toxic Substances and Disease Registries (ATSDR) have determined 
that 22 sites require further cleanup.
    One of these sites is the former Vermiculite Northwest, Inc. and 
then W.R. Grace plant in Spokane. The plant began producing Zonolite 
insulation in 1951. Even though the plant closed down in the early 
1970's, recent tests by EPA have found some soil samples from the site 
still have asbestos concentrations of up to 3 percent. EPA is strongly 
recommending that access to the site should be restricted almost 30 
years after the plant closed down.
    At many plants where vermiculite from Libby was processed, waste 
rock left over from the expansion process was given away for free. 
People used this free waste rock in their yards, driveways and gardens.
    The other picture you see shows Justin and Tim Jorgensen climbing 
on waste rock given out by Western Minerals, Inc. in Minneapolis, 
Minnesota in the late 1970's. According to W.R. Grace records, this 
rock contained between 2 and 10 percent tremolite asbestos. This rock 
produced airborne asbestos concentrations 135 times higher than OSHA's 
current standard for workers. Thankfully, neither Justin nor Tim has 
shown any signs of disease, but their risks of developing asbestos 
diseases, which have latency periods of 15 to 40 years, are increased 
from their childhood exposures.
    Today, people may still be exposed to harmful amounts of asbestos 
in vermiculite. Between 12 million and 35 million homes and businesses 
may have Zonolite insulation. This may be the case for up to 150,000 
homes in Washington. EPA has also tested agricultural products--soil 
conditioners and fertilizers--made with vermiculite, and determined 
that some workers may have been exposed to dangerous amounts.
    As I learned more about Libby, and how asbestos has ended up in 
products by accident, I was shocked to learn that asbestos is still 
being used in products on purpose. While some specific uses have been 
banned, the EPA's more sweeping ban was never put into effect because 
of a lawsuit backed by the asbestos industry.
    As a result, new uses of asbestos were banned, but most existing 
uses were not banned. Today, asbestos is still used to make roofing 
products, gaskets, brakes and other products. In 2001, the U.S. 
consumed 13,000 metric tons of it. Asbestos is still entering the 
product stream in America, despite the known dangers to human health. 
In contrast, asbestos has been banned in at least 20 other countries.
    Now it's time for the United States to ban asbestos, too. I want to 
ensure our government does all it can to minimize future suffering and 
death caused by asbestos. That is why yesterday we introduced the Ban 
Asbestos in America Act of 2002. Senator Baucus, thank you for being an 
original cosponsor of this important legislation. I also appreciate the 
cosponsorship of Senators Cantwell, Dayton and Wellstone.
    The Ban Asbestos in America Act of 2002 has four parts which I 
would like to briefly mention. First, this bill protects the public by 
requiring the EPA to ban asbestos by 2005. Like the regulations EPA 
finalized in 1989 under the Toxic Substances Control Act (TSCA), 
companies may file for an exemption to the ban. EPA may issue the 
exemption if there is no substitute material available and the 
exemption won't pose an unreasonable risk of injury to public health or 
the environment.
    I'd like to take a moment to point out to the Subcommittee the 
connection between what happened in Libby and EPA's efforts to ban 
asbestos. Last year, the EPA's Inspector General conducted an 
investigation into why the agency didn't do a better job of protecting 
the people of Libby. I was struck by one of the sections of the 
Inspector General's Report, in which a letter written by EPA in 1983 is 
quoted as follows, ``. . . asbestos-contaminated vermiculite is 
considered a lower priority at this time than problems posed by friable 
asbestos-containing materials in school buildings and commercial and 
industrial uses of asbestos.''
    In 1979, EPA had issued an Advanced Notice of Proposed Rulemaking 
that it intended to explore options to control asbestos under Section 6 
of the TSCA. In 1982, EPA issued a reporting rule under Section 8(a) of 
TSCA to gather information about commercial and industrial uses of 
asbestos. EPA's proposed rule to ban asbestos was published in the 
Federal Register in January 1986, and the final rule was published in 
1989.
    One of the reasons EPA did not spend more time focusing on 
asbestos-contaminated vermiculite was that the agency was working on 
the asbestos phaseout and ban rule. Unfortunately, this rule was 
overturned by the 5th Circuit Court of Appeals in 1991.
    There is a clear relationship between EPA's efforts to ban asbestos 
and the fact that problems in Libby were overlooked. I am saddened that 
EPA didn't spend more time focused on Libby in part because of a 
competing effort to limit asbestos exposure--an effort which ultimately 
failed.
    Second, the bill requires EPA to conduct a pubic education campaign 
about the risks of asbestos products. We need to warn people that their 
home insulation--if made with vermiculite--may be contaminated with 
asbestos. While EPA has agreed to remove vermiculite insulation from 
homes in Libby, the agency currently has no plans to do this 
nationwide.
    The Ban Asbestos in America Bill requires EPA and the Consumer 
Product Safety Commission to educate consumers about how best to handle 
this insulation within 6 months. The Ban Asbestos in America Act of 
2002 also requires EPA to conduct a survey to determine which foreign 
and domestic products consumed in the United States today have been 
made with asbestos. EPA has estimated as many as 3,000 products still 
contain the mineral.
    Third, the legislation invests in research, tracking and treatment 
of asbestos diseases. It requires a national mesothelioma registry, 
which would be coordinated with the A.T.S.D.R.'s existing efforts 
pertaining to Libby as well as with the National Institute for 
Occupational Safety and Health. The bill also authorizes funding for 7 
mesothelioma treatment centers nationwide to improve treatments for and 
awareness of this fatal cancer.
    Finally, the bill requires EPA to expand its Blue Ribbon Panel on 
Asbestos to address issues beyond the six regulated forms of asbestos, 
as EPA originally promised in its response to the Inspector General.
    Over the years, asbestos has taken a staggering toll on our 
country. We have recently been reminded of the dangers posed by 
asbestos because of concerns about asbestos exposure from the dust and 
debris caused by the collapse of the World Trade Center Towers. Had 
this country acted swiftly to ban asbestos when public health evidence 
about its dangers first emerged, the Towers would not have been built 
with any asbestos at all. Now we'll need to wait several decades to 
determine whether asbestos exposures in New York will cause asbestosis, 
lung cancer and mesothelioma for first responders and residents.
    I hope this Subcommittee, which has primary jurisdiction over the 
Ban Asbestos in America Act, will consider holding a hearing on the 
bill in the near future.

                               __________

     Statement of Hon. Denny Rehberg, U.S. Representative from the 
                            State of Montana

    Thank you Mr. Chairman, for the opportunity to provide testimony 
before the Committee today.
    Mr. Chairman, I have visited the Libby community three times within 
this past year to learn first hand of the health crisis that has 
plagued my constituents for more than a decade. At my invitation, EPA 
Administrator Christie Whitman joined me for a tour of Libby, where she 
had the opportunity to meet with community leaders and families 
affected by years of asbestos contamination. Her reaction to the tragic 
situation was a common one: she wanted to help.
    With each return visit to the community, it has become increasingly 
clear to me that this issue reaches far beyond asbestos, Superfund 
designation, cleanup, or economic loss. The situation in Libby is 
nothing short of a health emergency, spurred on by corporate greed, 
that has drastically altered the lives of good, hard working Montanans.
    As we analyze the difficult lessons learned from Libby, Congress 
cannot lose sight of the residents and their long-term healthcare 
needs. As time goes by and as research continues to offer new 
information, we may find that the tragedy of Libby is far greater than 
currently understood. However, regardless of future discoveries, we 
must be relentless in our efforts to clean up the contaminated homes, 
schools and businesses and provide a more secure future for the people 
of Libby, Montana.
    During my numerous visits to Libby, both as their Congressman and 
as their Lt. Governor, I have pledged my steadfast commitment to the 
residents to see this through to the end. And as the cleanup is 
completed and the stigma associated with this town fades, it is 
incumbent upon the government to continue to assist the individuals 
whose health and quality of life have been affected by asbestos 
exposure.
    Mr. Chairman, I appreciate your efforts in addressing this public 
health crisis. I look forward to working with my colleagues in Congress 
to once and for all bring about a positive conclusion to the public 
health nightmare that has plagued the citizens of Libby for more than a 
decade and to. ensure that the terrible mistakes that led to this 
disaster are not revisited on any another American community.
    Thank you, Mr. Chairman.

Statement of Marianne Horinko, Assistant Administrator, Office of Solid 
   Waste and Emergency Response, U.S. Environmental Protection Agency

    Good morning. I am pleased to appear today to address the cleanup 
of asbestos contamination in Libby, Montana, and the Agency's efforts 
to identify other sites nationwide that received vermiculite from 
Libby. EPA views the Libby asbestos site as one of the most significant 
Superfund sites nationally, and the Agency is committed to working with 
our state and Federal partners to take all steps necessary to protect 
human health and the environment in Libby and related sites.

                               BACKGROUND

    Libby is a small town of about 2,600 residents in northwest 
Montana. Approximately 10,000 more people live in about 2000 homes 
located in the surrounding valley. Between 1924 and 1991, a vermiculite 
mine owned originally by the Zonolite Corporation and purchased by W.R. 
Grace in 1963, was one of Libby's largest employers. The now-closed 
vermiculite mine once produced a large proportion of the world's 
vermiculite--with an estimated output of more than 5 million tons from 
1963 to 1990. The processed vermiculite ore mined in Libby has been 
used as a soil conditioner and in the manufacture of insulation, 
packaging and other materials.
    Over the years it operated, the mine and related facilities 
employed a total of about 2000 workers in Libby. The ore was milled and 
beneficiated (partly cleaned of impurities) on the mine property. After 
milling, the ore was transported to a screening plant at which the ore 
was graded prior to shipment by railroad to other processing plants 
around the country. It also went to one of two processing plants which 
operated in Libby during different periods in the mine's history, prior 
to bagging for shipment.
    One of the impurities in the vermiculite ore was asbestos. 
Contamination resulting from operation of the mine and related 
processing facilities has led to serious public health impacts among 
members of the Libby community. Asbestos health effects include 
malignant mesothelioma, an incurable and often fatal cancer of the 
chest cavity which in many cases is associated with asbestos exposure. 
Further, asbestos exposure is associated with an increased risk of all 
lung cancers, particularly when combined with smoking. Asbestos 
exposure can also cause asbestosis, a debilitating respiratory illness 
caused by progressive scarring of the lung tissue that can also be 
fatal.

          INVESTIGATIONS AND CLEANUP RELATED TO LIBBY ASBESTOS

    EPA is working closely with our Federal partners to address the 
asbestos contamination and related public health concerns in Libby and 
other communities across the country. EPA, the Agency for Toxic 
Substances and Disease Registry (ATSDR) and the U.S. Public Health 
Service (PHS) have mobilized an emergency response team to work in 
Libby. Coordinating closely with the community, the team conducted 
inspections of the former mine and processing facility, interviewed 
local physicians, and collected environmental samples to determine the 
need for environmental clean up. The team discovered significantly 
elevated incidence of asbestos-related disease in Libby, as well as 
evidence of asbestos contamination in several areas within the town.
    EPA is currently taking action under the Comprehensive 
Environmental Response, Compensation and Liability Act (CERCLA or 
Superfund) to protect human health and the environment in Libby. W.R. 
Grace, an owner and operator of the vermiculite mine and facilities, 
filed for Chapter 11 bankruptcy protection in late 2000. The United 
States continues to pursue reimbursement for Superfund activities 
through action in the Montana Federal District Court.

                         MEDICAL INVESTIGATIONS

    In November 1999, ATSDR and the PHS undertook medical 
investigations in Libby to determine the magnitude of asbestos-related 
health impacts in the community. These investigations, which were 
requested and funded by EPA, consisted of a morbidity/mortality study, 
development of a formal epidemiological case series, and health 
screening.
    The mortality study for the period 1978-1998 showed that mortality 
in the Libby community from asbestosis was approximately 40-60 times 
higher than expected for such a community. ATSDR conducted health 
screening of roughly 6,200 individuals, including former workers, 
family members of workers and current and former residents of Libby. 
Preliminary results of the health screening of these groups showed up 
to 18 percent with lung abnormalities. Significantly, more than half of 
this sample were not former W.R. Grace workers or their family members. 
In short, all of the medical investigations documented evidence of 
wide-spread disease and mortality resulting from exposure to asbestos.

                ENVIRONMENTAL INVESTIGATIONS AND CLEANUP

    EPA initiated a Superfund emergency investigation and cleanup 
actions in Libby. The initial investigations focused on the mine and 
processing areas, residences, parks and schools. From December 1999 
though April 2002, EPA collected more than 5,000 samples and conducted 
interviews to characterize the extent and severity of asbestos 
contamination in and around the town of Libby. Preliminary results 
showed that high amounts of asbestos-contaminated vermiculite remained 
at the mine, the mine road, processing areas, the mine tailings pile/
pond, and in residential and shared community areas.
    In June 2000, EPA initiated and oversaw cleanup actions at two 
former processing areas to address the worst asbestos contamination. 
EPA has since started cleanup actions at the mine road, the high school 
track and city park facilities where vermiculite ore tailings were 
found. Cleanup has also started at several residences where piles of 
vermiculite or contaminated equipment from the mine were found. More 
cleanups are planned to address elevated levels of asbestos, both at 
mining facilities and in the community.
    Federal agencies have maintained a program of early and meaningful 
outreach and coordination with the Libby community. This has included 
meeting frequently with the Libby Community Advisory Group, maintaining 
a storefront office in an accessible downtown location and frequent 
one-on-one communication with concerned Libby residents.
    On May 9, 2002, EPA approved a new Action Memorandum Amendment for 
the Libby Asbestos site, authorizing additional work at known locations 
and sources, including certain residential contamination in homes 
associated with vermiculite insulation.
    EPA determined that it was appropriate to address the insulation in 
Libby based upon the unique circumstances in Libby. EPA has determined 
that this material does fall within our response authorities, as 
detailed in the Agency's Action Memorandum Amendment of May 2002. In 
addition to the level of known cumulative exposure and multiple 
pathways, EPA determined that the remaining asbestos releases in Libby 
would not have been addressed by any other authority in a timely 
manner.
    EPA has made progress with residential cleanup in Libby. We have 
resumed the removal of vermiculite ores and mining wastes from 
residential yards. We are starting to address two homes with elevated 
amphibole asbestos concentrations in interior dusts. EPA expects to 
begin the removal of vermiculite insulation from homes within 1 week. 
There are currently 55 properties on the ``priority list'' for clean 
up. These are properties that have high levels of amphibole asbestos in 
their yards, plus either vermiculite insulation or interior 
contamination as well. EPA expects to complete the response at these 55 
properties this summer.
    In support of these activities, EPA is completing designs, plans, 
and contracts to construct an asbestos cell at the Lincoln County 
Landfill. This will create a permanent disposal location for the 
vermiculite insulation, and facilitate year round operations. Region 8 
should begin construction in mid-July.
    Work is also completing clean up and restoration actions already 
underway. EPA expects to finish the restoration of the High School, 
Middle School, Screening Plant, Export Plant and remove the remaining 
contamination at the KDC-Flyway this season.
    EPA has committed more than $60 million in fiscal years 2000 
through 2002 for environmental investigations, cleanup actions and 
medical investigations in Libby. Current estimates place fiscal year 
2003 needs at approximately $21 million. These future funding need 
projections are based upon assumptions about the number of homes or 
additional properties which may require clean up, and may be subject to 
significant revision as field work progresses.
    The ongoing work of EPA and our partners will help determine how 
best to complete the long-term remediation in Libby. To date, site 
investigation and cleanup activities have taken place under Superfund 
emergency or ``removal'' authorities. Given the widespread 
contamination and public health concerns in Libby, the Governor of the 
State of Montana designated the Libby site as the State's one-time, top 
priority site for cleanup. In response, EPA listed the Libby site on 
the Superfund's National Priorities List (NPL) of contaminated sites. 
EPA is committed to working with our partners to see that all necessary 
actions are taken to protect public health in the Libby community.

            EPA INVESTIGATIONS AND CLEANUP OUTSIDE OF LIBBY

    While EPA is currently taking action under Superfund to protect 
human health and the environment in Libby, the Agency is working with 
ATSDR to study other locations across the country where vermiculite ore 
from the Libby mine was shipped for processing.
    Between 1924 and 1991, the Libby mine produced much of the world's 
supply of vermiculite. EPA identified 240 locations across the U.S. 
that may have received Libby vermiculite for processing and 
distribution. Of these locations, EPA determined that 22 require 
further investigation by the Agency. When it appears that another 
agency may need to be involved, EPA shares its findings with other 
Federal or state agencies so that they can determine if additional 
followup is warranted.
    One notable example of a situation warranting a Federal / state 
agency approach is the significant asbestos contamination at the 
Western Minerals site in Minneapolis, Minnesota. Western Minerals 
operated as a vermiculite processing facility from 1937 until 1989. 
Between 1964 and 1989, Western Minerals is estimated to have processed 
more than 118,000 tons of vermiculite ore from the Libby, Montana mine. 
The waste material generated during the processing of vermiculite was 
made available to the public for use as fill material for driveways and 
yards. Since September of 2000, EPA and the State have been sampling 
and removing asbestos contamination at the former plant site and nearby 
residential yards. EPA and the Minnesota Department of Health (MNDOH) 
have received many reports of asbestos-related disease in residents who 
have lived in the predominantly residential area surrounding the 
facility. An ATSDR-funded survey is being conducted by the MNDOH to 
determine the health impacts in former workers and nearby residents at 
the Western Minerals site.
    ATSDR is currently working with state health departments to conduct 
or initiate reviews of health statistics for asbestos-related disease 
in areas of former vermiculite processing facilities across the 
country. EPA will continue to coordinate with ATSDR on this effort to 
identify any additional locations that may require environmental 
sampling or cleanup.

                  RESPONSE TO INSPECTOR GENERAL REPORT

    On March 31, 2001, the EPA Office of Inspector General (IG) issued 
a report titled, ``EPA's Actions Concerning Asbestos-Contaminated 
Vermiculite in Libby, Montana.'' The IG report focused on EPA's role in 
addressing asbestos contamination in Libby, as well as EPA's role in 
regulating asbestos. The IG report concludes that EPA's activities in 
Libby should continue, and emphasizes the importance of addressing 
potential asbestos contamination concerns associated with mining and 
other operations unrelated to Libby. EPA is coordinating closely with 
the Mine Safety and Health Administration (MSHA) and ATSDR to identify 
additional asbestos-contaminated sites associated with Libby or 
otherwise identified that may require cleanup actions under Superfund.

                               CONCLUSION

    EPA will continue to work closely with our Federal and state 
partners to take the steps necessary to protect the public health of 
the residents of Libby, Montana, as well as the health of communities 
outside of Montana that have been affected by Libby asbestos.
    Thank you for the opportunity to appear before you today to discuss 
cleanup issues associated with asbestos in vermiculite ore from Libby, 
Montana.

                               __________

 Statement of Gregory Wagner, M.D., Director, Division of Respiratory 
 Disease Studies, National Institute of Occupational Safety and Health 
 Centers for Disease Control and Prevention, U.S. Department of Health 
                           and Human Services

    Mr. Chairman and members of the subcommittee, I am Dr. Gregory 
Wagner, an occupational health expert at the National Institute for 
Occupational Safety and Health (NIOSH), Centers for Disease Control and 
Prevention (CDC). I am pleased to appear before you today to provide 
this testimony on behalf of NIOSH.
    NIOSH is a research institute within CDC, a part of the Department 
of Health and Human Services. CDC, through NIOSH, is the Federal agency 
responsible for conducting research and making recommendations to 
identify and prevent work-related illness and injury.
    My testimony today will address the current scientific knowledge 
about health risks to workers from exposure to airborne asbestos. I 
also will discuss NIOSH's past findings and current research related to 
asbestos contamination in Libby, Montana.

                               BACKGROUND

    Asbestos is a term that is generally used to refer to a group of 
fibrous minerals with exceptional resistance to degradation by heat, 
acids, bases, or solvents. The minerals are not combustible and have a 
high melting point and low thermal and electrical conductivity. These 
and other useful properties had resulted in the development of 
thousands of commercial uses for asbestoscontaining materials by the 
early 1970's. However, as the use of asbestos dramatically increased, 
the lethal effects of airborne asbestos became clear. Regulatory action 
and liability concerns related to the now well-established connection 
between inhalation of asbestos fibers and a variety of serious and 
often fatal diseases have reduced or eliminated the use of asbestos in 
many commercial products. However, asbestos and asbestos-containing 
materials are still found in many residential and commercial settings 
and pose a risk of exposure to workers and others.
    Asbestos is defined in Federal regulations as the minerals 
chrysotile, crocidolite, amosite, tremolite, actinolite, and 
anthophyllite. The Occupational Safety and Health Administration 
(OSHA), the Mine Safety and Health Administration (MSHA) and the 
Environmental Protection Agency (EPA) regulate these six minerals. All 
of the minerals, except for actinolite, have been used commercially. 
The results from epidemiologic studies of workers exposed to these 
minerals provide the scientific evidence of a causal relationship 
between exposure and adverse health effects in humans.

                       ASBESTOS-RELATED DISEASES

    Exposure to asbestos significantly increases the risk of 
contracting several diseases. These include:
    (1) Asbestosis--a disease characterized by scarring of the air-
exchange regions of the lungs;
    (2) Lung cancer--for which asbestos is one of the leading causes 
among nonsmokers, and which occurs at dramatically high rates among 
asbestos-exposed smokers;
    (3) Malignant mesothelioma--an almost invariably fatal cancer of 
the tissue lining the chest or abdomen for which asbestos and similar 
fibers are the only known cause; and
    (4) Nonmalignant pleural disease--which can appear as a painful 
accumulation of bloody fluid surrounding the lungs, but which more 
commonly is seen as thick and sometimes constricting scarring of the 
tissue surrounding the lungs.
    In addition, asbestos exposure is associated with excess mortality 
due to cancer of the larynx and cancer of the gastrointestinal tract. 
The malignant diseases--the cancers including mesothelioma--are often 
fatal within a year or a few years of initial diagnosis. In contrast, 
asbestosis deaths typically occur only after many years of suffering 
from impaired breathing.
    We do not know exactly how asbestos fibers cause disease. We do 
know that microscopic fibers can become airborne during various 
industrial processes or from handling of asbestos-containing materials 
and can then be inhaled and/or swallowed. As much as 50 percent or more 
of inhaled asbestos fibers can remain lodged in the lungs, where it is 
almost impossible for the body to eliminate them. Asbestos fibers are 
extremely resistant to destruction in body fluids, and many of these 
fibers are too long to be engulfed and removed by the cells that 
normally scavenge and remove particles that happen to deposit in the 
lungs. Generally, as the burden of retained fibers increases in the 
body, so does the likelihood of disease. Most asbestos-related 
diseases, particularly the malignant ones, have long latency periods 
often extending 10-40 years from initial exposure to onset of illness. 
While asbestos-related lung cancer and mesothelioma are frequently not 
curable, they and other asbestos-related diseases are clearly 
preventable by eliminating or limiting exposures to asbestos. The 
amount and duration of exposure are factors that can determine the risk 
of adverse health effects.

                       THE DEFINITION OF ASBESTOS

    In 1990 testimony before OSHA, NIOSH broadened its science-based 
definition of ``asbestos'' as a result of concerns about the 
microscopic identification of the six regulated asbestos minerals. The 
six minerals can also occur in a non-fibrous (so-called ``massive'') 
form. The non-fibrous mineral forms of the six asbestos minerals can be 
found geologically in the same ore deposits in which the fibrous 
asbestos minerals occur or in deposits where other commercially 
exploited minerals are mined (e.g., industrial grade talc). ``Cleavage 
fragments'' can be generated from the non-fibrous forms of the asbestos 
minerals during their handling, crushing, or processing, and these 
``cleavage fragments'' are often microscopically indistinguishable from 
typical asbestos fibers of the (fibrous) minerals.
    The elemental composition of the six asbestos minerals can vary 
slightly as a result of geological conditions such as pressure, 
temperature, or proximity of other minerals. Recognizing these 
variations in elemental composition, NIOSH believes that the six 
asbestos minerals can be defined by their ``solid-solution'' mineral 
series. For example, the mineral series tremolite-ferroactinolite 
contains the asbestos mineral actinolite. These mineral series are 
considered solid-solutions in which cations (i.e., sodium, calcium, 
magnesium, iron, etc.) are replaced by other cations which can affect 
the elemental composition of the mineral without significantly altering 
the structure.
    NIOSH bases this expanded ``asbestos'' definition--encompassing the 
entire solid-solution mineral series for each of the six currently 
regulated asbestos minerals and including cleavage fragments from the 
non-fibrous forms of these minerals-on scientific evidence from 
cellular and animal studies suggesting that dimension, specifically 
length and diameter, as well as durability, may be more critical 
factors in causing disease than chemical or elemental composition.

         NIOSH STUDIES OF VERMICULITE WORKERS IN LIBBY, MONTANA

    In June 1980, OSHA asked NIOSH to provide technical assistance to 
investigate lung problems in workers at a plant using vermiculite that 
had been mined in Libby. Shortly thereafter, MSHA also requested 
technical assistance from NIOSH to investigate the magnitude of health 
hazards in vermiculite mines. MSHA was particularly concerned about two 
reported cases of ``dust-related lung disease'' in workers at the Libby 
mine.
    In response to these requests, NIOSH initiated epidemiological 
studies in Libby, Montana. The epidemiological studies carried out by 
NIOSH between 1980 and 1985 showed that occupational exposure to 
mineral fibers that contaminate Libby vermiculite caused high rates of 
asbestos-related diseases among exposed workers at the Libby mine 
complex. The fibers these workers were exposed to included tremolite, 
one of the minerals within the definition of asbestos as currently 
regulated. Some recent evidence indicates that only 10 to 20 percent of 
the fibrous mineral content of the Libby vermiculite was tremolite. A 
much higher proportion-80 to 90 percent--of the fiber contaminant in 
this vermiculite has been characterized as several other similar fibers 
that are not currently regulated as asbestos, such as richterite and 
winchite. Richterite and winchite are fibrous minerals that are not 
classified as asbestos by mineralogists.
    NIOSH played a pivotal role in documenting the health hazard 
associated with occupational exposure to asbestos-contaminated 
vermiculite at the mine in Libby, Montana. NIOSH made its findings 
available beginning in 1985 through meetings in Libby with workers and 
their representatives, employer representatives, and members of the 
community. NIOSH also published its findings in several scientific 
papers to alert the occupational health community about the identified 
problem. It is clear in hindsight that further work remained to be 
done, in particular, with respect to further studies of downstream 
users of Libby vermiculite products. NIOSH is applying what we learned 
from our Libby investigations to our current and future activities both 
in Libby and throughout our program.

                         CURRENT NIOSH STUDIES

    At present, NIOSH is following up on potential exposures of workers 
who use or process vermiculite from other sources. Since closure of the 
Libby mine in 1990, most of the vermiculite now being produced for 
domestic use is obtained from one of four mines, three of them domestic 
and one located in South Africa. The degree to which the vermiculite 
from these other sources is contaminated with asbestos is not clear. At 
OSHA's request, NIOSH is conducting environmental sampling at expansion 
plants and horticultural operations where vermiculite is used. NIOSH 
will complete asbestos exposure assessments at two expansion plants for 
each vermiculite ore supplier, along with a number of horticultural 
sites. We expect the field data collection to be completed by the end 
of 2002. At present, field sampling has been completed at four 
expansion plants and three horticultural operations. From these studies 
we expect to learn the degree to which an asbestos exposure hazard 
exists in vermiculite from sources other than Libby, Montana. Once 
these studies are completed, we plan to produce and disseminate a 
technical report that describes the extent to which newly mined or 
imported vermiculite presents an asbestos risk to current vermiculite 
worker. Based on the findings, we may issue further guidance for 
protective measures to be taken.

                       FUTURE RESEARCH ACTIVITIES

    Additional research possibilities that NIOSH is considering include 
efforts to better determine physical and/or chemical characteristics 
affecting toxicity of fibers including those occurring naturally and 
those manufactured. Direct evidence by which to attribute particular 
health effects to each possible fiber type is not currently available. 
Epidemiological studies of people exposed to naturally occurring or 
manufactured fibers would provide important new information, and 
studies conducted with animals could provide mechanistic and other 
toxicologic data.
    Asbestos fibers have many different lengths and diameters. 
Additional work to improve and standardize the methods for asbestos 
fiber measurement is being considered because it would help advance 
prevention and control efforts to protect exposed workers. Human 
assessment of risk and occupational exposure limits is based on 
airborne fiber concentrations determined by the use of phase contrast 
microscopy (PCM). This analytical method leaves an undetermined number 
of asbestos fibers collected on each sample uncounted because many 
fibers are too small in diameter to be detected and because the 
standard procedure for counting fibers using PCM takes into account 
only fibers longer than 5 micrometers in length. Current asbestos 
exposure risk assessment is based only on a subset of fibers that can 
be detected using PCM techniques. More sensitive analytical methods are 
currently available, but these methods could benefit from better 
standardization.

                               CONCLUSION

    In summary, we know much about the adverse health effects caused by 
the inhalation of asbestos fibers. Increased understanding of the 
health effects of fibrous minerals that fall outside the existing 
definitions of asbestos will help us find ways to provide appropriate 
protection for workers exposed to those materials. Further 
identification of workplace sources of vermiculite exposure and the 
tracking of persons potentially exposed to fiber-contaminated 
vermiculite and other contaminated materials will help us develop 
appropriate public health strategies for preventing exposure to these 
materials. While information continues to be gathered, public health 
prudence requires that vermiculite from the Libby mine or products 
containing vermiculite originating in Libby be considered potentially 
dangerous and that proper precautions be taken to minimize the 
generation and inhalation of any dust during the handling of these 
materials until analysis of the particular vermiculite or vermiculite-
containing product shows that it does not produce an asbestos hazard.

                               __________

Statement of Henry Falk, M.D., M.P.H., Assistant Administrator, Agency 
 for Toxic Substances and Disease Registry, U.S. Department of Health 
                           and Human Services

    Good morning, I am Dr. Henry Falk, and I am the Assistant 
Administrator of the Agency for Toxic Substances and Disease Registry 
(ATSDR), a public health agency within the U.S. Department of Health 
and Human Services (HHS). I am accompanied by Sharon Campolucci, RN, 
MSN, Deputy Director of the ATSDR Division of Health Studies; she was 
coordinator of the medical testing program in Libby.
    Senator Baucus, ATSDR is grateful for the interest and support 
given by you and other members of the Montana delegation since we began 
working in Libby in late 1999. As you know, we came to Libby in 
response to concerns expressed by yourself, community members, former 
vermiculite mine workers, and the health department. Over the last 
several years, we have worked very closely with the U.S. Environmental 
Protection Agency (EPA) to address these concerns. Without the support 
of all of you we would not be able to report today on the significant 
progress we have made in evaluating the public health issues in the 
Libby, Montana, area.
    Congress created ATSDR in 1980 under the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA), or 
what is more commonly known as the Superfund legislation. CERCLA 
mandates of ATSDR a broad, national program of Superfund site health 
assessments, health investigations, surveillance and registries, 
applied research, emergency response, health education, and 
toxicological data base development. Broadly speaking, ATSDR's 
responsibilities under Superfund, the Resource Conservation and 
Recovery Act (RCRA), and other Federal statutes are to assess the 
effects of toxic substances on community populations and to recommend 
interventions to protect public health where they are needed. This may 
include medical screening and epidemiologic investigations of health 
effects of community populations exposed to hazardous substances; ATSDR 
undertook these activities in Libby. We also conduct investigations to 
measure human exposure to toxic substances released from waste sites or 
other sources of release. We conduct our work in close collaboration 
the U.S. Environmental Protection Agency (EPA), state health 
departments, local health agencies, and affected communities.
    Since being called upon in November 1999, ATSDR has been actively 
involved with the citizens and public health and environmental 
officials to determine the extent of harm to humans from asbestos-
contaminated vermiculite that was mined in Libby.
    In the earliest days of our involvement in Libby, we developed a 
plan to help guide site-related public health activities. As we have 
shared with you in the past, this Public Health Response Plan 
identifies the areas of responsibilities for the conduct of our health-
related activities. All stakeholders, including officials and the 
affected community, provided input throughout the process of both 
developing and implementing the Public Health Response Plan. The plan 
describes specific activities that are designed to prevent exposures 
and to mitigate or prevent adverse health effects. Key elements 
targeted in the plan were:
    (1) to provide community-based medical testing to determine the 
health status of exposed people;
    (2) to assess disease and illness trends to characterize the impact 
of the environmental exposure;
    (3) to provide a public health education program to assist 
residents in obtaining full and up-to-date information on asbestos-
related risks and diseases; and
    (4) to collect and analyze medical and epidemiologic data to better 
characterize the nature and extent of asbestos-related disease in the 
community.
    Following are updates on activities that resulted from this action 
plan.

                            MEDICAL TESTING

    From July to November 2000, ATSDR staff conducted medical tests on 
current and former residents of the northwest Montana town. 
Participants included 6,149 adults who lived, worked, or played in 
Libby for at least 6 months before December 31, 1990. Components of the 
testing included an in-depth questionnaire to build an exposure history 
for each of the participants, three X-ray views to identify changes in 
the lungs and lung lining that might be the result of asbestos 
exposure, and a spirometry test that measured air flow in and out of 
the lungs to measure lung function. Of those 5590 study participants 18 
years of age and older who were eligible for X-ray testing, 18 percent 
(994) showed pleural abnormalities (chest wall scarring). According to 
data reported in the literature, the rates of pleural abnormalities in 
the United States among groups without known exposure to asbestos range 
from 0.2 to 2.3 percent.
    Additional findings included:
    <bullet> Forty-eight percent (159 of 328) of former W.R. Grace 
employees who participated in the medical testing had pleural 
abnormalities.
    <bullet> Most participants reported multiple routes of exposure 
(household contact, occupational, recreational, and other) to the 
asbestos-contaminated vermiculite. For example, 24 percent of 
participants who reported six or more routes of exposure had pleural 
abnormalities.
    <bullet> Five percent (6 of 122) of those participants who reported 
no apparent exposure had pleural abnormalities.
    The second phase of initial medical testing was conducted between 
July and September 2001, and included 1,158 participants. Notification 
letters have been sent to these participants, and ATSDR is in the 
process of analyzing these new data and combining them with results 
from those tested in 2000. Once the analysis is completed, ATSDR will 
produce and make available to the community a final report combining 
results from both medical testing phases. The preliminary analysis of 
this combined data does not indicate any significant change in the 
prevalence of abnormalities when compared to data from the first phase 
of testing.
    ATSDR is working to ``localize'' the medical testing program--
transitioning it to the state and local health departments with our 
ongoing technical and resource support.

                            MORTALITY REVIEW

    In addition, after consultation with the National Institute for 
Occupational Safety and Health (NIOSH), CDC, we investigated an 
association between contaminated vermiculite and human health through a 
mortality review in which we compared death rates for residents of the 
Libby area with those in Montana, and the United States, for selected 
diseases that have been associated with asbestos. ATSDR staff reviewed 
death certificate data from 1979 to 1998 for the Libby community. The 
review focused on the underlying cause of death in Libby-area 
residents. We found that mortality from asbestosis in the Libby area 
was at least 40 to 60 times higher than expected. We also found that 
death from mesothelioma appeared to be elevated. This mortality review 
is continuing; additional data are being reviewed to support these 
early findings. We expect to release this mortality review by early 
July.
    These two investigative tools--the medical testing and mortality 
review--clearly indicated a public health problem in Libby. Based on 
these findings, ATSDR recommended many followup activities, several of 
which already have been initiated.
    <bullet> Working with a local pulmonary physician who treats 
referrals from the Libby area, ATSDR has conducted a focused review of 
patients with an asbestos related diagnosis and no known link to 
vermiculite mining. This review was conducted to address community 
concerns about environmental asbestos exposure outside the workplace. 
Final revisions for the report are now in progress and preliminary 
results will be released later this month.
    <bullet> A computerized tomography (CT) scan study is nearly 
complete. This study was designed to evaluate the sensitivity of the 
medical screening tool (chest X-rays) and to help in planning possible 
future medical testing activities. All 353 scans have been completed 
and reviewed by expert CT radiologists, and letters providing 
individual scan findings have been sent to participants and their 
physicians. Analysis of these data for the study report is underway.
    <bullet> Detailed planning and preparatory work has begun on the 
development of a registry to track former Libby-area miners and their 
household contacts. This focuses on the members of this community who 
were at greatest risk based on exposure levels and on the results of 
the medical testing program; a key source of registrants would be those 
who participated in the medical testing program. ATSDR sponsored a 
workshop in February to consult with and solicit advice from experts in 
pulmonology and asbestos-related disease to help guide the next steps 
for the Libby registry. The recommendations from this group will assist 
in addressing the concerns of the Libby community while also meeting 
ongoing surveillance needs and in the collection of valuable scientific 
data. In addition, the registry will help us stay in contact with all 
of the identified individuals and provide updated information on 
diagnosis and treatment options. The registry is intended to be a long-
standing fixture that will not only be a repository of information 
about the registrants, but will also be a source of the latest 
information about treatments and other medical breakthroughs.
    <bullet> ATSDR is working with the State to support localized 
planning to address future medical needs. Extended medical testing will 
need to continue in some form for many years. People who have tested 
positive will need to be followed to note any progression in the course 
of the disease. People who have tested negative to date, but who were 
substantively exposed, will also need periodic testing, but probably on 
a different schedule. Primary responsibility for the medical testing 
program will be transitioned to the State and local health department 
with ongoing technical and resource support from ATSDR.
    <bullet> ATSDR worked in close cooperation with HHS Region VIII 
staff to help the community identify sources of assistance for medical 
care. In fact, HHS Deputy Secretary Claude Allen personally visited 
Libby last August and was instrumental in developing an HHS response. 
HHS now supports the Community Health Clinic (CHC) in Libby which 
provides primary health care services to people in the Libby area. 
ATSDR has also worked cooperatively with the Center for Asbestos 
Related Disease (CARD) in Libby. This facility, operated by St. John's 
Hospital, provides ongoing medical care for persons diagnosed with 
asbestos related medical conditions or those requiring further 
evaluation after undergoing initial medical testing.
    <bullet> The Lincoln County Department of Environmental Health and 
the University of Montana in Missoula, in cooperation with ATSDR and 
the Montana Department of Public Health and Human Services, are 
organizing a research conference for later this month (June 24-26) to 
discuss current asbestos-related research and plan for future projects. 
Conference co-sponsors include EPA, the National Institute for 
Environmental Health Sciences, and the National Science Foundation.
    <bullet> This June to facilitate development of the future research 
agenda related to the Libby site.

              ADDITIONAL ACTIVITIES PLANNED FOR NEXT YEAR

    Now that cases have been identified through the various methods I 
have outlined (e.g., mortality review, case series review, and medical 
testing), other recommended activities include:
    <bullet> epidemiologic studies to better evaluate the relationship 
of exposures and exposure pathways to disease;
    <bullet> follow-up evaluation of individuals in the medical testing 
program who were referred for medical care to assure that this referral 
worked effectively; and
    <bullet> a better determination of the clinical course and natural 
progression of pulmonary disease related to tremolite asbestos.
      other sites that received asbestos-contaminated vermiculite
    Processing of vermiculite ore shipped from Libby has occurred at 
approximately 300 sites in 40 states over the last 50-90 years. These 
sites are being reviewed to consider the potential for health problems 
similar to those experienced by Libby-area residents and former mine 
workers. ATSDR staff have been working with EPA to determine if any of 
these sites pose a public health hazard. This review has included site 
visits to assess the extent of current or past operations, and to 
determine the extent of human exposure and possible pathways of 
exposure to the asbestos. One site that has already elicited 
considerable attention is the Western Mineral Products site in 
Minneapolis, Minnesota.
    This Minnesota site was used for insulation products manufacturing 
from 1936 to 1989. The plant received vermiculite ore from Libby, 
Montana, and processed the ore into insulation, fireproofing material, 
and other vermiculite products. Under a cooperative agreement with 
ATSDR, the Minnesota Department of Health (MDH) conducted a health 
consultation to identify health concerns related to asbestos exposure 
from the site. Plant workers were exposed to levels of asbestos in 
excess of current occupational standards for much of the time the plant 
was in operation, and cases of asbestos-related disease have been 
reported in former workers. Additionally, approximately 100 properties 
around the former plant have been identified as contaminated with 
asbestos containing wastes from the site. The EPA is in the process of 
removing asbestos-contaminated soil from these properties and adjoining 
alleys.
    The extent of past and current exposures to asbestos is difficult 
to estimate at this time. Based on available information, past exposure 
to workers in the plant, residents who lived near the site and children 
who played on piles of vermiculite waste material may have been at risk 
for asbestos exposure. To address this concern, MDH initiated the 
Northeast Minneapolis Community Vermiculite Investigation (NMCVI), a 
population survey to identify and characterize asbestos exposure in a 
community cohort. This study involves a door-to-door interview and 
visual inspection of properties in the immediate vicinity of the 
Western Mineral Projects Plant in Minneapolis, as well as a telephone 
interview of former residents in the target area and other individuals 
who may have had exposure to vermiculite. This investigation will 
determine the size and demographics of the population at risk. The EPA, 
Minnesota Pollution Control Agency, and MDH will continue to 
investigate and clean up the site and surrounding community.
    ATSDR staff have developed a protocol for use by the state health 
departments to review vital statistics and cancer registry data to 
determine if there might be a health impact in any affected community 
that warrants further investigation. During fiscal year 2001, ATSDR 
developed cooperative agreements with six states (Utah, Colorado, 
Massachusetts, California, Louisiana, and Wisconsin) to conduct health 
statistics reviews around sites that received asbestos contaminated 
vermiculite from Libby and to determine whether there is an excess of 
asbestos related disease. Later this summer, other states will have an 
opportunity to apply for support of similar health-related activities; 
we anticipate supporting up to four additional states. In addition, 
ATSDR has awarded funds to conduct evaluation of mesothelioma cases in 
three states (New York, New Jersey and Wisconsin). This surveillance 
process enables states to use their cancer registry data to identify 
all mesothelioma cases and then look backward to see if the disease in 
any portion of the cases could be associated with asbestos exposure 
from contaminated vermiculite or vermiculite insulation from Libby. 
ATSDR staff also is working with health officials in Montana to review 
mesothelioma cases in that state.
    I would like to reiterate that ATSDR shares your concerns about the 
situation in Libby--both the environmental contamination and the health 
concerns. While we have done a great deal of work in Libby, much 
remains to be done. To summarize, our primary goals for this coming 
year are:
    (1) implement the registry of former workers and family contacts;
    (2) establish the medical testing program on a long-term basis by 
transitioning primary responsibility to State and local health 
departments, with technical and resource support from ATSDR;
    (3) conduct epidemiologic studies to formally investigate the links 
between the various environmental exposures and the development of 
disease;
    (4) provide data on potential health effects in other states that 
had vermiculite processing centers that led to harmful exposures; and
    (5) pilot mesothelioma surveillance activities, in coordination 
with NIOSH.
    With your continued support, ATSDR stands prepared to continue the 
important work we have begun and do whatever we can to help the Montana 
and Libby community, and any other sites that may be identified with 
similar problems.
    Mr. Chairman, this concludes my testimony; I would be happy to 
respond to any questions you may have.

                               __________

 Statement of Michael R. Spence, M.D., Chief Medical Officer, Montana 
          State Department of Public Health and Human Services

    Madam Chairperson and members of the committee, for the record my 
name is Michael R. Spence. I am a medical doctor licensed to practice 
medicine in the state of Monlana. I am currently the chief medical 
officer in the Montana State Department of Public Health and Human 
Services, a position that I have held for the past 5 years. In my 
current capacity I have the charge of addressing public health issues 
that impact the citizens of Montana.
    In November 1999 a newspaper report indicated that there was a 
potential, major public health problem in Libby, Montana related to 
previous mining activities and community contamination. The substance 
in question of causing the problem was vermiculite ore, a product with 
many industrial applications and known to be contaminated with asbestos 
minerals. Large numbers of residents of Libby were described as being 
ill with asbestos related disease and many were said to have died from 
this illness. The publication of this report resulted in a team of 
health professionals being deployed to Libby to assess the situation. 
The groups of individual that met for the evaluation of the potential 
problem consisted of members from the Environmental Protection Agency 
and Health and Human Services from Region 8 located in Denver, 
Colorado, the Chief Medical Officer for the State of Montana, the 
Montana State Epidemiologist and the Lincoln County Montana Health 
Officer.
    Over the ensuing weeks, after meeting and consulting many of the 
foremost world authorities on asbestos minerals and related diseases, 
it was determined that there was a need to evaluate Libby residents for 
the presence of asbestos-related disease, assess the environmental 
situation for asbestos mineral contamination and, if necessary, 
initiate remediation. The population was assessed, protocols were 
developed and in July 2000 the Agency for Toxic Substances and Disease 
Registry (ATSDR) initiated a medical screening program for the presence 
of asbestos related disease in the Libby population. The medical 
screening continued into November of that year and resulted in over 
6,000 persons being evaluated. The initial screening initiative 
resulted in the ATSDR issuing two reports. The first was entitled 
``Preliminary Findings of Medical Testing of Individuals Potentially 
Exposed To Asbestoform Minerals Associated with Vermiculite in Libby, 
Montana: An Interim Report for Community Health Planning'' and was 
provided to the community in February 2001. The second report entitled 
``Year 2000 Medical Testing of Individuals Potentially Exposed to 
Asbestoform Minerals Associated with Vermiculite in Libby, Montana: A 
report to the Community August 23, 2001'' included all of the results 
of the testing activity that took place in 2000. (Exhibit A) In the 
summer of 2001 a second screening activity took place and an additional 
1,150 persons were evaluated for asbestos-related disease.
    It became apparent from the results of the screening that the 
problem of asbestos-related disease was not limited to Vermiculite Mine 
and Mill workers and their families but was also found in other 
individuals in the community. The ways by which these other 
individuals, that were neither workers nor family members, acquired 
their disease, based on extensive epidemiologic investigation, was 
thought to be through exposure to asbestos mineral contaminated 
vermiculite insulation materials, gardening soil and ambient dust.
    It is well established by medical science that Asbestos minerals 
cause three major disease processes. One form is a restrictive airway 
disease that results from progressive damage to the lung and the 
tissues that surround it. The damage is that of scarring of the 
membrane or tissue that surrounds the lung and restricts its' ability 
to expand. This form of disease results in the individual being unable 
to take deep breaths and receive enough oxygen to support life. In 
essence the individual is slowly smothering to death. A second form is 
the development of lung cancer. It has been estimated that a person 
exposed to asbestos minerals has a significantly greater risk of 
developing lung cancer than a person not exposed to asbestos minerals. 
If the asbestos exposed person also smokes cigarettes their risk of 
developing lung cancer is increased even more. The third major disease 
is a rapidly fatal cancer, mesothelioma, which is known to be caused by 
asbestos. The average time from diagnosis to death in individuals with 
mesothelioma is less than 1 year. An extensive, epidemiological 
investigation entitled ``Mortality in Libby, Montana, 1979-1998'' 
(Exhibit B) has demonstrated an excess in mortality of Libby residents 
from lung cancer, mesothelioma and non-malignant respiratory disease.
    Asbestos minerals in causing disease do not act immediately. There 
is a latency period between the time of exposure to the asbestos 
minerals and the development of disease that is measured in tens of 
years with the average period being between twenty (20) and thirty (30) 
years. It is for this reason that a person that develops restrictive 
airway disease can be exposed to asbestos minerals and remain well for 
20-25 years. They will then develop progressive lung disease that kills 
them slowly over the next 10 or more years. If they develop either lung 
cancer or mesothelioma after the 20-25 year time period they will 
usually die more quickly.
    The problem of asbestos-related disease in Montana is not limited 
to Libby. A recent and ongoing survey of mesotheliomas that were either 
reported to the Montana State Tumor Registry or were found as a result 
of a search of death certificates of people dying in Montana has 
disclosed that there is an increased number of deaths from this 
asbestos specific cancer. These deaths are not limited to Libby and 
distributed throughout the state of Montana. Most of the deaths from 
mesothelioma that have been identified so far have occurred in towns 
where the asbestos mineral contaminated vermiculite ore was shipped 
and/or milled or along major ore shipping routes. In view of these 
findings it is important to realize that much of the ore that was mined 
in Libby was shipped to over 100 destinations outside of the state of 
Montana where it was milled and/or incorporated into insulating 
materials for houses and gardening soil.
    In summary, asbestos mineral contaminated vermiculite has been 
unequivocally established as being causative of a progressive fatal 
lung disease as well as a rapidly fatal cancer, mesothelioma, in 
exposed individuals. The exposures resulting in the illness and/or 
death are not limited to mine and mill workers and their families. The 
problem is not limited to Libby, Montana but is widely disseminated 
throughout the state of Montana and over 100 sites in the United 
States.

[GRAPHIC] [TIFF OMITTED] T3698.001

[GRAPHIC] [TIFF OMITTED] T3698.002

[GRAPHIC] [TIFF OMITTED] T3698.003

[GRAPHIC] [TIFF OMITTED] T3698.004

[GRAPHIC] [TIFF OMITTED] T3698.005

[GRAPHIC] [TIFF OMITTED] T3698.006

[GRAPHIC] [TIFF OMITTED] T3698.007

[GRAPHIC] [TIFF OMITTED] T3698.008

[GRAPHIC] [TIFF OMITTED] T3698.009

[GRAPHIC] [TIFF OMITTED] T3698.010

[GRAPHIC] [TIFF OMITTED] T3698.011

[GRAPHIC] [TIFF OMITTED] T3698.012

[GRAPHIC] [TIFF OMITTED] T3698.013

[GRAPHIC] [TIFF OMITTED] T3698.014

[GRAPHIC] [TIFF OMITTED] T3698.015

[GRAPHIC] [TIFF OMITTED] T3698.016

[GRAPHIC] [TIFF OMITTED] T3698.017

[GRAPHIC] [TIFF OMITTED] T3698.018

[GRAPHIC] [TIFF OMITTED] T3698.019

[GRAPHIC] [TIFF OMITTED] T3698.020

[GRAPHIC] [TIFF OMITTED] T3698.021

[GRAPHIC] [TIFF OMITTED] T3698.022

[GRAPHIC] [TIFF OMITTED] T3698.023

[GRAPHIC] [TIFF OMITTED] T3698.024

[GRAPHIC] [TIFF OMITTED] T3698.025

[GRAPHIC] [TIFF OMITTED] T3698.026

[GRAPHIC] [TIFF OMITTED] T3698.027

[GRAPHIC] [TIFF OMITTED] T3698.028

[GRAPHIC] [TIFF OMITTED] T3698.029

[GRAPHIC] [TIFF OMITTED] T3698.030

[GRAPHIC] [TIFF OMITTED] T3698.031

[GRAPHIC] [TIFF OMITTED] T3698.032

[GRAPHIC] [TIFF OMITTED] T3698.033

[GRAPHIC] [TIFF OMITTED] T3698.034

[GRAPHIC] [TIFF OMITTED] T3698.035

   Statement of Pat Cohan, Coordinator, Clinic for Asbestos Related 
                                Disease

    My name is Pat Cohan. I am a registered nurse with 29 years of 
experience. For the last 2 years I have been involved with the health 
needs of our community related to asbestos exposure. My introduction to 
the asbestos disaster was in 2000 when I accepted a grant position 
funded by HRSA for the asbestos health screenings. This position had 
two integral parts. The first was to be the outreach nurse for the 
ATSDR's screenings that summer. Over 6,000 respondents were screened 
and I handled any medical emergencies, health concerns, or urgent 
referral issues that arose after the chest X-rays were viewed. The 
second part of the position was to help create a clinic that would 
assess, diagnose, and educate people with health care concerns 
resulting from the screening results.
    The Center for Asbestos Related Disease (CARD) was created by St. 
Johns Lutheran Hospital to fill this need. The volume of phone calls, 
visits, and drop-in visits was incredible. It seemed that everyone in 
town and their relative was frantic for information. We now have over 
1,000 active charts and of these over 800 have some asbestos related 
changes evident. Each of our clients and family members has received 
health information and education relating to pulmonary health.
    The breadth and depth of the psychosocial, emotional, health and 
financial concerns associated with the amphibole disaster has been 
without precedent and I have usually been first at hand to hear the 
many different life stories. To listen to a client calmly speak of 
hidden mountain valleys and hunting accidents because he will not allow 
his children to watch him die the way he watched his father suffer and 
die, is a reality of my job. I have worked to find financial resources 
for a 47-year-old woman, who has less than half of her normal lung 
function and no health insurance, so she can afford to have a lung 
biopsy done. Her chest X-ray was suspicious for a mesothelioma, a type 
of cancer associated with asbestos exposure. This woman, a daughter of 
a Zonolite miner, waited over 3 months to hear if she would qualify for 
Grace's medical plan.
    Some of the stories are so convoluted that it's hard to sort out 
what is most urgent. A woman with asbestos related illness, who cares 
for her mother with asbestosis, has been washing her dishes in the tub 
for the last 2 years. Her kitchen is plastic sheeted and duct taped 
closed to keep the leaking Zonolite insulation from further 
contaminating her home.
    I have a neighbor who has resided in Libby for over 40 years. He 
never worked at the mine, never gardened with vermiculite, and never 
had any contact that he knew of other than the insulation in his home. 
This is a man who started the Libby volunteer ambulance and who has 
hiked and skied every mountain in the Cabinet Mountains. He has worked 
tirelessly for the community in every conceivable volunteer role. 
Because of the asbestos damage to his lungs he can no longer ski, hike, 
or volunteer. His major activity now is breathing.
    I have used the word disaster most deliberately. This is a slow 
motion disaster. Had a mine leaked a toxin into the air of Libby and 
200 people immediately died with 2000 others injured, 20 percent 
critically, I would not be here. I would be back home in the emergency 
room, taking care of the sick and wounded and we would all be trying to 
figure how quickly the remaining toxins could be removed. We would not 
be struggling to find health insurance, low cost medicines, or funding 
for long term care and monitoring. Just because the toxin took 30-50 
years to kill and maim our community, it is no less a disaster.
    The damage done to this community was not an act of God; it was not 
for an ideological principle or for a religious conviction. It was done 
for profit. The exposure and the responsible parties' disrespect for 
people need to stop. The miners were treated as a disposable resource 
and the citizens of Libby were treated with no more regard than the 
overburden of rock at the mine. The survivors of this disaster continue 
to be exposed, continue to be at risk for worsening disease, and 
continue to worry about how they will pay for their health care needs. 
It is not a matter of waiting a few years for the affected people to 
die off and for the problem to go away. It is a matter of waiting 
another 20 years to see if their grandchildren's health is affected. We 
already know the children and grandchildren have been affected 
emotionally, socially and monetarily.
    What does Libby need? The need for Libby is research for 
treatments, for health insurance that will be available for the length 
of the disease process, and the facility to monitor progression of this 
disaster for the next twenty years.
    I wish to take the opportunity to thank our Montana delegation for 
all that has been done for the community of Libby. I especially want to 
thank Senator Baucus for all his attention and efforts in our 
community.
    Thank you.
 Statement of Brad Black, M.D., Lincoln County Health Officer, Libby, 
    Montana, Medical Director of Center for Asbestos-Related Disease
    Good morning Chairperson Boxer, committee members, and our Montana 
Senator Max Baucus. As a physician and community member of Libby, 
Montana for 25 years, I could orate a lengthy story, but with 5-minute 
time constraints, I would like to tell a brief background story and 
then emphasize 3 important points as they relate to the Libby asbestos 
exposure.
    I became aware of the occurrence of ARD in workers in 1977-1978-my 
first year in Libby. In 1978, my medical practice partner, the late Dr. 
Richard Irons, had engaged in conversations with WR Grace management 
pertaining to his desire to work with them to reduce health risk for 
asbestos exposure to Zonolite workers, their family members of the 
community. Unfortunately his concerns were not acknowledged. Nor were 
the EPA's concerns regarding the 1980 assessment of vermiculite-
associated asbestos acknowledged. In 1999, a Seattle PI article 
depicted a broad scale asbestos exposure in Libby. As Lincoln County 
Health officer, my first response was disbelief that any widespread 
environmental exposure could cause lung disease. Subsequently, the past 
several years have been a painful and humbling educational process for 
myself. During the past few years I have seen numerous community 
workers whose lives have been significantly impacted by asbestos-
related disease. Several friends have developed lung disease and have 
lost over one-half of their lung function. From this experience, I 
would like to share with you the three important observations.
    (1) The Libby exposure was extensive. The ATSDR has conservatively 
and efficiently screened for ARD. As Medical Director of CARD in Libby, 
we have followed up a large number with abnormal screens and 
evaluations. I have recently done analysis of our patient population 
and found the ATSDR's observations to be very accurate. Somewhere 
between 1,300 to 1,400 individuals are very likely to have asbestos-
related abnormalities. This does not include the ATSDR's screening in 
2001, which could add another 200-300 individuals.
    (2) The ARD related to Libby asbestos has appeared different then 
that related to commercial asbestos called chrysotile. Experience has 
shown it to have a higher rate of causing progressive lung disease. Dr. 
Alan Whitehouse has studied a group of Libby patients and observed a 
progression of disease in 70 percent of diagnosed patients. Some 
patients develop a rapidly progressive lung disease (note included case 
report). Nonoccupationally exposed individuals have developed lung 
disease that is more severe than WR Grace employees of >15 yrs. work.
    (3) The incidence of malignant mesothelioma is exceedingly high. 
This type of tumor involves the lining of the chest or abdominal 
cavities. This invasive cancer eats into the chest wall and spinal 
column causing severe pain and is uniformly fatal. It has a high causal 
relationship to asbestos exposures and is termed the sentinel tumor of 
asbestos exposure. The occurrence of this tumor is 1 in 1 million in 
the general population. In Libby we are experiencing 100 times this 
expected incidence. Twenty-three mesotheliomas have occurred as a 
result of Libby asbestos exposure, with six having resulted from non-
occupational exposure. Since I had submitted testimony for this hearing 
in April, two more individuals have been diagnosed. Their exposure 
history was living in Libby, one working as a forest service 
administrator and the other as a school health nurse. Another lady with 
the tumor was exposed simply working in a professional office where 
Zonolite workers attended appointments in dusty work clothing. 
Mesotheliomas can occur with relatively low asbestos exposure.
    Few investigators have studied or observed the health effects of 
Libby asbestos. In addition to Dr. Alan Whitehouse (Board-certified 
chest physician, Spokane, WA) whom I mentioned, Dr. Corbett McDonald 
(McGill University) has familiarity.
    At the request of WR Grace, Dr. McDonald studied a group of 
Zonolite workers in 1986. Subsequently, he has done a followup of this 
group and noted ``these vermiculite workers suffered severely from 
malignant and non malignant respiratory disease.'' Death from 
mesothelioma was 10 times higher than commercial (chrysotile) asbestos 
miners in Quebec. He concludes that study of workers exposure to Libby 
tremolite is important in that it is the only study that quantifies the 
risk of exposure to tremolite-like asbestos in the absence of any other 
fiber types.
    In closing, I want to express my concern pertaining to how we will 
be able to meet the asbestos-related health care needs we are sure to 
face over the next 20-30 years. WR Grace has been providing funding for 
the CARD Clinic and an insurance program. However, their commitment to 
caring for affected individuals is waning and suggests that their 
support is short-lived. The need for research and developing therapies 
is high priority.
    Additional concerns extend beyond Libby to: (1) exposures from WR 
Grace export plants all around the US (2) areas of California where 
release into the environment of naturally occurring tremolite is a 
result of large-scale construction activities.
    I thank the Superfund subcommittee for allowing us this 
opportunity, and our Montana delegation for their support, and special 
thanks to Max with his perseverance in advocating for Montanans.

                               __________

    Statement of John Konzen, County Commissioner for Lincoln County

    My name is John Konzen. I am from Troy, Montana and serve as County 
Commissioner for Lincoln County. You have already heard about Libby, a 
community I serve both as an elected County Commissioner and as a 
member of the Board of Directors for St. John's Lutheran Hospital in 
Libby.
    Lincoln County is no stranger to the Federal family. Floods and 
forest fires dispatch Federal agencies to us regularly. Our county 
shares the Canadian border and a reservoir that straddles the 
international boundary, feeding the Columbia River Basin. There are 
endangered species and every other natural resource issue you can 
imagine. We struggle with double-digit poverty and unemployment rates. 
On an average day, it's fair to say we are a county with a lot on our 
plate.
    Before I became a commissioner I served as a teacher and a school 
administrator for many years. I witnessed first hand the effects down 
cycles have on resource-based communities like the ones I serve today. 
I can tell you first hand how families are affected when mills close or 
mines shutdown.
    Most of you would have probably never heard about Libby or Lincoln 
County if it weren't for tremolite asbestos and a mine operated by W.R. 
Grace.
    There was a time when the W. R. Grace Mine was a good thing in our 
community. It meant jobs and goodpaying ones. Men went to work every 
day to earn a living for their families. They didn't step away from 
their responsibility. And I bet a lot of them would have gone to work 
every day even if they had known of the risk they were taking on for 
themselves. That's what husbands and fathers do.
    But none of those men would have ever put their families--their 
wives, children or grandchildren--in harms way. Never. Not a single one 
of us in this room would have done that. But as you have already heard, 
Grace allowed all of that to occur.
    There is an old saying that goes: ``Many hands make light work.'' 
When Grace stepped away from their responsibility, they allowed the 
miners and the wives and children of those men, to do all the heavy 
lifting, and to take on the risks Grace was unwilling to shoulder.
    And as Grace continues to step away from even the small portion of 
responsibility they willingly accepted to help our community cover 
prescription drug, home health care and other medical costs, they are 
breaking us. Our tiny community's medical resources are already 
stretched too thin.
    But it isn't just our community alone which concerns me and the 
other Montanans who have traveled here today to speak with you. As 
Grace increases the distance between the rightful portion of 
responsibility they must bear, they further harm the State of Montana.
    As Senator Baucus is well aware, people are our most precious 
resource in Montana. As I travel across Montana for regular meetings 
with other county commissioners in our state, commissioners tell me 
they too are concerned about the far-reaching impact of Grace's lack of 
responsibility. Many fear Grace's recent decision to no longer help 
with medical expenses of folks who had qualified for their own medical 
plan, has the potential to bankrupt our own state Medicaid program.
    We appreciate the help the Federal family has extended to northwest 
Montana. We don't know where we would be without the help the 
Department of Health and Human Services, the Environmental Protection 
Agency, the Agency for Toxic Substance Disease Registry and Congress 
have provided us. Everyone is doing heavylifting. Everyone it seems, 
but Grace.
    I am here to thank Congress--and hard-working folks across the 
country for supporting our community. You have all done your part and 
we can't begin to thank you enough But I would also like to add that 
W.R. Grace still has a place at our table. We need them to do their 
part too.
    As Grace makes its way through Federal bankruptcy court there are 
several things I would ask this committee and those present to consider 
to set aside a separate trust fund, established by Grace to cover the 
short-term prescription drug and home-health needs of folks in Libby 
who are struggling with asbestos-related disease. I would also ask you 
to consider establishing a trust fund for longer-term health care 
needs. I appreciate the questions that have been raised about long term 
funding for cleanup and the statutory authority for removing insulation 
in homes in Libby. Good health is all any of us can ask for. A clean 
bill of health is the most profound mark our Federal friends will leave 
upon our community.
    I appreciate your time and on behalf of Lincoln County, I thank you 
for this opportunity.
  

                                  <all>

</pre></body></html>
